<html>
<title> - NATIONAL LABORATORIES: WORLD LEADING INNOVATION IN SCIENCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                        NATIONAL LABORATORIES: 
                  WORLD	LEADING INNOVATION IN SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2018

                               __________

                           Serial No. 115-52

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
       
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-779 PDF              WASHINGTON : 2018              
 
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina


                            C O N T E N T S

                             March 14, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     8
    Written Statement............................................    10

                               Witnesses:

Dr. Mark Peters, Director, Idaho National Laboratory
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. Susan Seestrom, Advanced Science and Technology Associate 
  Laboratory Director and Chief Research Officer, Sandia National 
  Laboratory
    Oral Statement...............................................    25
    Written Statement............................................    27

Dr. Mary E. Maxon, Associate Laboratory Director for Biosciences, 
  Lawrence Berkeley National Laboratory
    Oral Statement...............................................    39
    Written Statement............................................    41

Dr. Chi-Chang Kao, Director, Stanford Linear Accelerator Center, 
  National Accelerator Laboratory
    Oral Statement...............................................    65
    Written Statement............................................    67

Dr. Paul Kearns, Director, Argonne National Laboratory
    Oral Statement...............................................    73
    Written Statement............................................    75

Discussion.......................................................    86


             Appendix I: Answers to Post-Hearing Questions

Dr. Mark Peters, Director, Idaho National Laboratory.............   114

Dr. Susan Seestrom, Advanced Science and Technology Associate 
  Laboratory Director and Chief Research Officer, Sandia National 
  Laboratory.....................................................   119

Dr. Mary E. Maxon, Associate Laboratory Director for Biosciences, 
  Lawrence Berkeley National Laboratory..........................   122

Dr. Chi-Chang Kao, Director, Stanford Linear Accelerator Center, 
  National Accelerator Laboratory................................   126

Dr. Paul Kearns, Director, Argonne National Laboratory...........   131


                         NATIONAL LABORATORIES:



                  WORLD-LEADING INNOVATION IN SCIENCE

                              ----------                              


                       WEDNESDAY, MARCH 14, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    And welcome to today's hearing entitled ``National 
Laboratories: World-Leading Innovation in Science.''
    And I'll recognize myself for an opening statement.
    Today, we welcome a diverse group of Directors from five of 
DOE's national laboratories. They oversee innovative work in 
basic science and early-stage research performed daily by some 
of the best scientists and researchers in the world.
    Our witnesses represent national labs that fulfill the 
Department of Energy's missions within the Office of Science, 
applied energy and national security programs. The Science 
Committee's jurisdiction over the DOE budget includes over $9 
billion for civilian research, development, demonstration, and 
commercial application programs, much of which is conducted by 
the national labs. Over the past 70 years, this research 
community has led to monumental achievements in medicine, 
manufacturing, computing, and energy technology development.
    The labs that are represented here today have made 
invaluable contributions to U.S. scientific progress and 
leadership. They have repeatedly demonstrated that basic 
science research is the most effective way to encourage 
innovation in technology.
    In 1942, a group of scientists in Chicago created the first 
nuclear reactor. Four years later, Argonne National Laboratory 
was formed to continue this groundbreaking nuclear research. 
Using the lab's expertise in materials and nuclear science, 
Argonne designed the nuclear reactor used in the USS Nautilus, 
the first nuclear-powered submarine. These reactor designs also 
became the prototype for most of today's commercial nuclear 
power plants. The impact of Argonne's research is far beyond 
what the early nuclear scientists could have imagined.
    In the 1960s, SLAC National Accelerator Laboratory 
conducted its first groundbreaking experiments in particle 
physics using the first linear particle accelerator. This 
research led to the discovery of quarks, elementary particles 
that are the fundamental components of matter. Their discovery 
has changed the way we understand our universe at the most 
fundamental level. SLAC has led the world in linear accelerator 
technology for decades, expanding its focus from particle 
physics to include materials science, alternative energy 
research, biology, and cosmology.
    Although Sandia is one of the Department's four nuclear 
weapons labs, the lab's expertise in science and engineering 
has broad applications across our economy. In the 1980s, Sandia 
National Lab collaborated with industry to develop the primary 
drill bit used in horizontal drilling. Sandia's basic research 
in geology led to the development of microseismic fracture 
mapping techniques for hydraulic fracturing. Industry partners 
adapted these techniques for commercial use and deployed 
technology to maximize energy production across the country.
    At Lawrence Berkeley National Laboratory, a large 
multipurpose science lab, researchers have discovered 16 
different elements, fabricated the world's smallest synthetic 
motor, sequenced part of the human genome, and discovered dark 
energy through the Supernova Cosmology Project. Scientists at 
Berkeley Lab also developed the genetic engineering technology 
known as CRISPR, which could one day allow scientists to remove 
cancerous genes.
    Finally, Idaho National Laboratory is the Nation's premier 
nuclear technology laboratory. INL scientists have designed and 
constructed 52 nuclear reactors, including the first reactor to 
generate electricity in 1951. Today, INL's nuclear expertise 
supports the military's naval propulsion system, the civilian 
nuclear power industry, and develops tools to detect hidden 
nuclear material around the world.
    DOE user facilities provide our nation's researchers with 
the most advanced tools of modern science, including particle 
accelerators, light sources, and supercomputers. Approximately 
32,000 researchers each year from academia and the private 
sector use DOE facilities to perform new scientific research 
and develop new technologies.
    Last month, the House passed three bipartisan Science 
Committee infrastructure bills that authorize DOE funds for 
critical upgrades to a number of high-priority national lab 
user facilities. In fact, user facilities from four of the five 
labs represented here today are included in those pieces of 
legislation. We look forward to hearing from our witnesses 
about the potential impact of these upgrades.
    It is a central goal of this Committee to ensure that our 
national labs remain the best in the world. To maintain our 
competitive advantage as a world leader in science, we must 
continue to support the research that will lead to next-
generation energy technologies.
    [The prepared statement of Chairman Smith follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Ms. Johnson, is 
recognized for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman. As a matter 
of fact, that was an outstanding statement, and I want to thank 
you for holding this hearing and also from hearing the 
witnesses from the Department of Energy national laboratories 
for testifying today. We look forward to it.
    Our national laboratories, as we all know, are part of the 
foundation of the U.S. research enterprise. The work of the 
scientists and engineers at our labs is truly extraordinary and 
has been the catalyst for so many scientific and technological 
breakthroughs. You can look at nearly every growing industry in 
the United States and see the fingerprints of federally funded 
R&D and more than likely see the work of researchers at our 
national laboratories.
    Scientific infrastructure and research activities play a 
vital role in our nation's economic strength, as well as its 
security, and we need to support them. This year's DOE budget 
proposal submitted by the Administration is a slight 
improvement over last year's, thanks in large part to a budget 
deal we struck here in Congress. While I'm glad to see the 
Administration is not proposing an overall cut to the Office of 
Science, I think we can all agree that these vital activities 
warrant funding increases, not just a continuation of 
stagnating and declining budgets year in and year out.
    A key remaining challenge for DOE's Office of Science is 
that the dysfunctional congressional budget process has 
prevented new projects and facility upgrades from moving 
forward. I hope to work with my colleagues in the House and 
Senate to ensure that we find a way to fund these important 
projects as soon as possible.
    Beyond the Office of Science, the rest of DOE did not even 
achieve stagnation in the budget proposal, and the national 
laboratories are in line to suffer as a result. The 
Administration is proposing 66 percent cut to the Office of 
Energy Efficiency and Renewable Energy, a 32 percent cut to the 
Office of Electricity, and a 25 percent cut to the Fossil 
Energy R&D, and a 26 percent cut to the Office of Nuclear 
Energy. These draconian cuts are simply not acceptable.
    By all credible accounts, American industry will not fund 
the activities that are proposed for elimination no matter how 
much the Administration would like to think so. The Department 
could have heard that--from industry directly, but the second 
year in a row we heard from Department officials that they did 
not formally engage with the private sector in deciding what 
activities they would cut. However, that did not stop the 
Administration from rationalizing these cuts by stating that 
the private sector is better suited to carry out activities 
that are being cut.
    I hope we can get back to reality during this hearing. I'd 
like to hear from our witnesses who regularly engage with the 
private sector about how they foresee the private R&D changing 
if cuts like those proposed are enacted. In almost every case, 
research funded by the Department is too high risk to attract 
private sector investment. If the technology matures and the 
private sector sees an opportunity to profit, I assure you that 
they will happily find the capital to ensure the technology 
finds its way to the market.
    Our challenge has been that we have trouble moving 
technologies far enough along the innovation pipeline for this 
to occur. The problem we are facing is not that our federal R&D 
budgets are too high or that we're doing too much. Quite the 
opposite. I have not met a single person with actual industry 
experience who would advocate for smaller federal R&D budgets.
    Now, to be clear, I am not saying that every program the 
Department currently implements is perfect. We should continue 
to identify smart reforms and debate our priorities. We must be 
thoughtful investors of the taxpayers' dollars, but I'm 
confident that investing robustly in our national laboratories 
and early and appropriately reviewed later-stage R&D is the 
right decision.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Smith. Thank you, Ms. Johnson.
    And I'll introduce our experts today. And our first witness 
is Dr. Mark Peters, Director of Idaho National Laboratory, and 
President of Battelle Energy Alliance. Before joining Battelle, 
Dr. Peters served as the Associate Laboratory Director for 
Energy and Global Security at Argonne National Laboratory. He 
currently serves as a Senior Advisor to the Department of 
Energy on Nuclear Energy Technologies, Research, and 
Development Programs and Nuclear Waste Policy. As a recognized 
expert in nuclear fuel cycle technologies and nuclear waste 
management, he is called upon frequently to provide expert 
testimony and to advise in formulation of policies for nuclear 
fuel cycle, nonproliferation, and nuclear waste disposal.
    Dr. Peters received a bachelor's degree in geology from 
Auburn University and his doctorate in geophysical science from 
the University of Chicago. He has also completed the Strategic 
Laboratory Leadership Program at the University of Chicago 
Booth School of Business. He was honored as a fellow of the 
American Nuclear Society in 2015.
    Our next witness is Dr. Susan Seestrom, Associate 
Laboratory Director for Advanced Science and Technology, and 
Chief Research Officer at Sandia National Laboratory. Prior to 
joining Sandia, Dr. Seestrom spent over 30 years at Los Alamos 
National Laboratory serving in a number of leadership positions 
including Associate Laboratory Director for Experimental 
Physical Sciences and Associate Laboratory Director for Weapons 
Physics. Dr. Seestrom was named a fellow of the American 
Physical Society in 1994 and served as Chair of the Nuclear 
Science Advisory Committee for the Department of Energy and the 
National Science Foundation from 2009 to 2012. In her current 
role, Dr. Seestrom manages multiple science programs, 
environmental technologies, computing, modeling, and simulation 
Laboratory-Directed Research and Development, user facilities, 
and education programs.
    Dr. Seestrom received her bachelor of science and Ph.D. in 
physics from the University of Minnesota. She is the co-author 
of over 140 referred publications with over 1,800 career 
citations. Excuse me.
    Our third witness is Dr. Mary Maxon, the Associate 
Laboratory Director for Biosciences at Lawrence Berkeley 
National Laboratory. There, she oversees the Biological Systems 
and Engineering Environmental Genomics and Systems Biology and 
Molecular Biophysics and Integrated Bioimaging Divisions, as 
well as the DOE Joint Genome Institute.
    Prior to joining Lawrence Berkeley, Dr. Maxon worked in the 
private sector of the biochronology and pharmaceutical 
industries and the public sector serving as the Assistant 
Director for Biological Research at the White House Office of 
Science and Technology Policy in the Executive Office of the 
President. With her extensive background in industry, 
scientific foundations, and state and Federal Government, she 
is a national leader in science and technology policy.
    Dr. Maxon earned her bachelor's degree in biology and 
chemistry from the State University of New York Albany and her 
Ph.D. in molecular cell biology from the University of 
California Berkeley.
    Our next witness is Dr. Chi-Chang Kao, Director of the 
Stanford Linear Accelerator Center, pronounced SLAC, and 
National Accelerator Laboratory. Previously, Dr. Kao served as 
Chairperson of the National Synchrotron Light Source at 
Brookhaven National Laboratory in New York. He joined SLAC as 
Associate Laboratory Director for the Stanford Synchrotron 
Radiation Lightsource in 2010 and became the fifth Director in 
November 2012. He has been named a fellow of both the American 
Physical Society and the American Association for the 
Advancement of Science. His research focuses on x-ray physics, 
superconductivity, magnetic materials, and the properties of 
materials under high pressure.
    Dr. Kao earned a bachelor's degree in chemical engineering 
from National Taiwan University and a doctorate in chemical 
engineering from Cornell University.
    Our final witness today is Dr. Paul Kearns, Director of 
Argonne National Laboratory. With nearly three decades of 
management experience, Dr. Kearns has a strong background in 
science and engineering, along with extensive experience with 
the U.S. Department of Energy. Prior to his work at Argonne, 
Dr. Kearns was Director of the Idaho National Engineering and 
Environmental Laboratory where he also served as Deputy 
Laboratory Director and Associate Laboratory Director for 
Environmental Technology and Engineering. Dr. Kearns has held 
leadership and advisory roles in the Department of Energy's 
Office of Energy Management in Washington and in regional 
offices, including the Chicago operations office.
    Dr. Kearns is a fellow of the American Association for the 
Advancement of Science and a member of the American Nuclear 
Society. He holds a doctorate and a master's degree in 
bionucleonics and a bachelor's degree in natural resources and 
environmental sciences, all from Purdue University.
    Among the four experts we have here today, there are at 
least 50 different titles, an indication of their knowledge and 
expertise. And so we will begin, and Dr. Peters, if you will 
lead us off.

                 TESTIMONY OF DR. MARK PETERS,

              DIRECTOR, IDAHO NATIONAL LABORATORY

    Dr. Peters. Thank you, Mr. Chairman. Chairman Smith, 
Ranking Member Johnson, and Members of the Committee, thank you 
for the opportunity to appear before you today. It's an honor 
to speak to you about the Department of Energy national 
laboratories.
    I've submitted my written testimony for the record and will 
summarize it here. My name is Mark Peters, and I'm the Director 
at Idaho National Laboratory. I'm also serving in a one-year 
term as Chairman of the National Laboratory Directors Council, 
an organization created by the Directors of the 17 national 
laboratories.
    A rapidly changing world results in a complex and evolving 
set of challenges for our nation. Primary among those are 
insuring our national security at home and abroad; increasing 
the availability of clean, affordable, and reliable energy; and 
continuing to enhance U.S. competitiveness in the global 
market. I am confident in our country's ability to meet these 
challenges in part because the United States possesses the 
unique asset: the Department of Energy's national laboratories.
    Our laboratories are among the Nation's top science and 
technology enterprises with a rich history of accomplishment 
that has driven American prosperity. This Committee's 
jurisdiction includes the national laboratories, and I believe 
each of you can take a great deal of pride in the system you've 
helped build and support.
    Our national laboratories are home to state-of-the-art 
facilities who capably support DOE, the Department of Defense, 
the Department of Homeland Security, the intelligence community 
and our military to provide technical solutions to national 
security challenges.
    Finally, our partnership with industry and academia drives 
technology, science and technology solutions to the 
marketplace, creating jobs and driving economic growth. But we 
can never become complacent or be unwilling to honestly assess 
our strengths and weaknesses and work to improve. I would argue 
that we can and should strive to do more as a national 
laboratory system.
    In October of 2015 the Commission to Review the 
Effectiveness of the National Laboratories delivered its first 
report. We all took careful note of the contents of that 
report, specifically how the relationship between DOE and its 
management and operating contractors had, in the words of the 
Commission, eroded over time. My colleagues and I understand 
our vital mission to serve the American taxpayers best served 
by embracing reform and improving the way we operate.
    I also want to emphasize that the Department of Energy, 
under the leadership of Secretary Moniz and now Secretary 
Perry, is deeply committed to the national laboratories and is 
partnering with us to improve our effectiveness. Last fall, the 
National Laboratory Directors Council wrote a letter to 
Secretary Perry in support of DOE's efforts to drive 
fundamental change across the laboratories.
    As we continue to evolve the relationship between DOE and 
its M&O contractors, let us focus on the following areas: 
rebuilding trust between DOE and its contractors; restoring 
responsibility, authority, and accountability for decisions and 
performance; bureaucratic reduction; and, when appropriate, the 
use of consensus standards. We understand that in asking us to 
be empowered, we also are betting on ourselves, and we need to 
embrace the culture of safety and transparency.
    Now, moving onto the focus of the importance of research 
and development. Idaho National Laboratory is proud of its 
status as the nation's leading nuclear energy research and 
development laboratory. As part of our effort to maintain and 
extend the lives of the U.S. nuclear fleet, we are working with 
utilities to modernize control rooms and help transition DOE's 
Light Water Reactor Sustainability Program to one focused on 
not only helping with extending licenses but also reducing 
operating costs.
    But it's important to note that if we are to maintain our 
historic advantage in civil nuclear energy, we must establish 
private-public partnerships between the Federal Government and 
the nuclear industry. In that we are working on advanced 
reactor designs at the laboratory in partnership with industry, 
and vital to all that is the--vital to all that, we must 
maintain research and development talent, capabilities, and 
facilities at the national laboratories. This includes a 
versatile fast neutron source, which I thank the Committee for 
strongly supporting. INL is also a multi-program laboratory 
that addresses a broad range of energy and security challenges, 
including protecting the grid from cyber attack.
    So in the end, our mutual success requires stability. 
Maintaining our country's leadership in science and innovation 
requires sustained and strong support and building cutting-edge 
scientific and engineering facilities and infrastructure and 
maintaining an outstanding workforce. Other countries are 
doubling down their investments in government-funded R&D. This 
threatens our long-held science and technology leadership 
position. The national laboratory system is strongest when DOE 
is strong. It is absolutely critical that DOE's core missions 
have strong support and stable funding across the entire R&D 
spectrum.
    So in closing, DOE is working actively with the national 
laboratories to make the system more effective and efficient. 
Secretary Perry and his team are to be commended for 
spearheading this effort, which cannot help but result in 
better outcomes for us all. For our part, we at the 
laboratories are committed to working with Secretary Perry and 
the DOE to build trust and accountability and ensure the best 
possible return for the Nation's investment in the DOE national 
laboratories.
    Thank you again for the opportunity to be here and look 
forward to your questions.
    [The prepared statement of Dr. Peters follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Chairman Smith. Thank you, Dr. Peters.
    And, Dr. Seestrom.

                TESTIMONY OF DR. SUSAN SEESTROM,

                      ADVANCED SCIENCE AND

            TECHNOLOGY ASSOCIATE LABORATORY DIRECTOR

                  AND CHIEF RESEARCH OFFICER,

                   SANDIA NATIONAL LABORATORY

    Dr. Seestrom. Chairman Smith, Ranking Member Johnson, and 
distinguished Members of the Committee, I thank you for the 
opportunity to testify today about the role of engineering, 
science, and technology at Sandia National Laboratories, the 
Nation's largest federally funded research and development 
center. I'm Susan Seestrom, Associate Laboratories Director for 
Advanced Science and Technology and Chief Research Officer.
    There's four points I would like to emphasize in my 
testimony today. The first is that Sandia National Laboratory's 
core mission is to ensure the safety, the security, and the 
effectiveness of our nation's nuclear deterrent.
    My second point is that our ability to carry out that 
mission rests on our strong foundation as a science-based 
engineering laboratory.
    My third point is that the scientific capabilities that 
we've developed in executing our mission for the nuclear 
deterrence are often applied to other missions of DOE and other 
government agencies.
    And finally, as an FFRDC national security lab, Sandia 
requires the flexibility to pursue forward-leaning research and 
development so that we can anticipate and prepare for national 
security challenges beyond the present scope of programs.
    As an engineering lab, our purpose at Sandia is to develop 
advanced technology to ensure global peace, and that mission 
is--mainly sees itself in our nuclear deterrence. As one of 
three NNSA laboratories, Sandia provides foundational science 
and engineering to the NNSA in order that they can maintain and 
modernize the nuclear stockpile and ensure its effectiveness in 
an evolving international landscape.
    We at Sandia have the responsibility for the weaponization 
of the nuclear explosives through weapons system engineering 
and the integration of nonnuclear components into the nuclear 
explosive packages that are designed by our sister NNSA 
laboratories. Nuclear deterrence has been our core mission for 
almost 70 years, and the complex and multidisciplinary nature 
of that mission has enabled us to solve some of the most 
pressing national security challenges facing the country in 
areas such as nonproliferation, energy, and cybersecurity.
    We conduct such work for a number of government 
stakeholders beyond the NNSA, including the broader DOE, the 
Department of Homeland Security, and DOD. This work enables us 
to strengthen our key expertise, our expertise in key areas, 
invent new and unique solutions to problems, and to nurture our 
R&D staff. Our Laboratory-Directed Research and Development 
program, or LDRD, is essential to us as our primary source of 
discretionary research fund. In a future of rapidly evolving 
threats, LDRD provides us with flexible resources and the 
agility we need to anticipate and prepare for national security 
challenges that are beyond the horizon of present programs. 
Sandia needs its LDRD to invest in long-term, high-risk, and 
potentially very high payoff R&D that stretches the lab's 
science and engineering capabilities. We also use partnering 
with industry, academia, and other labs to extend our 
foundational research understanding and contribute results that 
are important to us and to our partners.
    I would like to close my testimony with one example of the 
synergy that I've tried to describe above. There are more 
examples in my written testimony. A series of projects over ten 
years sponsored by various sources, including Laboratory-
Directed Research and Development, deepened our understanding 
of semiconductor physics. Standard semiconductors are 
susceptible to natural and hostile environment radiation 
sources that our nuclear weapons can be expected to encounter. 
We developed a scientific understanding of the rich material 
science and special processing techniques that allowed us to 
design radiation resistance directly into our semiconductor 
devices at our Microsystems Engineering and Science 
Applications capability, MESA. MESA is the only U.S. facility 
to produce strategically radiation-hardened microelectronics 
for the nuclear weapons complex.
    Sandia's rad hard semiconductor devices reduce the 
development costs of the W76-1 Life Extension Program, and 
Sandia is now scheduled to produce more than 40,000 rad hard 
integrated circuits for the stockpile modernizations over the 
next 10 years.
    With that, I thank you for your attention and the 
opportunity to testify here today.
    [The prepared statement of Dr. Seestrom follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Chairman Smith. Thank you, Dr. Seestrom.
    And, Dr. Maxon?

                TESTIMONY OF DR. MARY E. MAXON,

         ASSOCIATE LABORATORY DIRECTOR FOR BIOSCIENCES,

             LAWRENCE BERKELEY NATIONAL LABORATORY

    Dr. Maxon. Chairman Smith, Ranking Member Johnson, and 
distinguish Members of the Committee, thank you for holding 
this hearing and for the Committee's support for science.
    My name's Mary Maxon, and I'm the Associate Laboratory 
Director for Biosciences at Lawrence Berkeley National Lab, a 
DOE Office of Science lab managed by the University of 
California. It's my honor to participate in this hearing. Thank 
you for inviting me.
    Berkeley Lab was founded in 1931 by Ernest Orlando 
Lawrence, UC Berkeley physicist who won the 1939 Nobel Prize 
for physics for inventing the cyclotron. Lawrence and his 
colleagues discovered that scientific research is best done by 
teams of people with different fields of expertise working 
together. This teamwork concept is a Berkeley Lab legacy 
reflected throughout the national lab complex today. With five 
national scientific user facilities that are used by around 
11,000 users annually Berkeley Lab is a key part of the 
Nation's scientific and innovation infrastructure.
    Today, we're a multipurpose lab, delivering world-leading 
advances in energy, materials and chemical sciences, 
biosciences, earth sciences, and physics. Other countries are 
busy building their own national labs. The time is now to 
invest strategically to ensure that our advantages don't 
disintegrate and leave us behind.
    Fortunately, progress is being made from upgrading our 
light sources to the exascale computing initiative. Positive 
actions are being taken by this Committee and the Department to 
ensure that American researchers have access to the very best, 
and this is good news. Other areas, more attention is required.
    Renewing laboratory infrastructure--utilities, water 
drainage, buildings--is needed to support modern research. 
Although the Office of Science is addressing this aggressively, 
much more is needed. We encourage the Committee to address this 
long-term challenge.
    Another long-term challenge is ensuring a diverse and 
talented workforce at the labs. Cultivating talent and 
promoting inclusion is central to the creation of a successful 
work environment, driven by a diversity of thought, partners 
working toward shared objectives. Among the national labs, 
Berkeley Lab was the first to publish workforce diversity 
statistics. We know that our success as a national lab depends 
upon our ability to create a community that brings together 
people with diverse backgrounds, points of view, and approaches 
to problem-solving. This is critical.
    In my remaining time, I'd like to describe how the labs 
succeed by integrating unique resources and world-leading 
expertise. National labs play a key role in our innovation 
ecosystem, uniquely talented equipped to tackle grand 
challenges by integrating resources and expertise at a scale 
and breadth impossible by other institutions.
    The labs also provide a longer-term outlook on success than 
is available within industry, one that can take science from 
the bench to the user facility and ultimately to collaboration 
with industry and the marketplace. One really exciting example 
is the microbiome for energy and environmental sustainability. 
It's got great promise, but it's a tough scientific nut to 
crack. Microbes are the most abundant life form on earth. In a 
handful of soil, there are more microbes than stars in our 
galaxy. They exist in a network of communication and 
collectively work to impact their environments, whether healthy 
soils for agriculture or the biodegradation of toxic 
pollutants.
    Deciphering this world of microbiomes is a huge 
undertaking. It's like taking 1,000 puzzles, each with 
thousands of pieces, and then scattering them in a pile and 
trying to reconstruct them without a picture. It requires a 
national lab.
    Genome sequencing, engineering biology, advanced high-
performance supercomputing, success here could mean more 
productive energy crops, faster remediation of contaminated 
soils, and new bioproducts to fuel the Nation's bio-economy. In 
this and other examples, there are no bright lines between 
fundamental research, applied R&D, and commercialization. It's 
a continuum. The national laboratories work well along this 
continuum and play a key role in shepherding discoveries to the 
point of commercial viability.
    A recent example is the Agile BioFoundry. Established in 
2016 by EERE, the BioFoundry is a biological engineering 
platform that aims to reduce the time and cost of producing 
biofuels and bioproducts, a difficult challenge. The BioFoundry 
is a consortium of eight national labs established in response 
to industry, the need that was articulated at listening days 
with industry representatives. They specifically identified 
issues that are beyond their capacity to address.
    It's now a scientific platform de-risking a number of 
technologies, and a recent solicitation shows that there's a 
significant demand for this type of research. Nineteen 
companies applied for $20 million in requested funds, four 
times more than what is available.
    I thank you for the opportunity to testify at this 
important hearing. I'm happy to answer your questions.
    [The prepared statement of Dr. Maxon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
     
    
    Chairman Smith. Thank you, Dr. Maxon.
    And, Dr. Kao.

           TESTIMONY OF DR. CHI-CHANG KAO, DIRECTOR,

              STANFORD LINEAR ACCELERATOR CENTER,

                NATIONAL ACCELERATOR LABORATORY

    Dr. Kao. Mr. Chairman----
    Chairman Smith. I still don't think your mic is on.
    Dr. Kao. I need to punch it.
    Chairman Smith. There. Okay.
    Dr. Kao. Chairman Smith, Ranking Member Johnson, and 
Members of the Committee, my name is Chi-Chang Kao, the 
Director of SLAC National Accelerator Laboratory. I'm happy to 
be here to talk about how SLAC is leading the way of basic 
research and innovation in the United States.
    SLAC, located on the Stanford campus in Menlo Park, 
California, is one of the ten Office of Science labs. We have 
an annual research budget of around $300 million with another 
$280 million in fiscal year 2017 to construct two new large 
user facilities.
    SLAC was established in 1962 as a center of particle 
physics, as the Chairman described at the beginning. The 
laboratory has evolved over the last ten years into a 
multiprogram lab. The focus of the laboratory is on fundamental 
science, discovery of the things that we don't know about 
nature. The work has led to four Nobel Prize over the last few 
decades.
    Let me give you two examples. The laboratory today operates 
two major x-ray facilities. One of them is Stanford Synchrotron 
Radiation Lightsource. The other one is Linac Coherent Light 
Source. Linac Coherent Light Source is the world's first x-ray 
free-electron laser. A free-electron laser is a very different 
kind of x-ray source. It comes in a very short time, one 
millionth of a one billionth of a second, the timescale in 
which electrons move, atoms move. It let us to take snapshots 
and to make movies of how things actually work in nature.
    And after the machine was built in 2009, there was 
international competition both when Europe and Asia tried to 
duplicate what we have done. And so there is an LCLS-II project 
currently ongoing, and then also two high-energy upgrades 
beyond that. These two projects are made possible because of 
multi-laboratory collaboration between Fermilab, Argonne 
National Lab, Berkeley Lab, and SLAC that allowed us to make it 
happen quickly and have the technology better than our 
competitors.
    And when these two upgrades are completed in the mid-2020 
time frame, we will have the world's most powerful x-ray 
facility available to scientists around the United States for 
research on materials, chemistry, biology, and applied energy 
programs. These will lead to better electronics, batteries, new 
drugs, and also new materials like quantum materials that may 
be important for quantum computing in the future.
    SLAC is also participating in a collaboration between the 
National Science Foundation and Department of Energy High 
Energy Physics Office where we are building the Large Synoptic 
Survey Telescope. This is the largest digital camera made to 
survey the sky, half of the southern sky every few days. That 
data will be made available to everyone in the country, even 
the high school students. They can look at this to understand 
the mysteries we still don't know about dark matter and dark 
energy.
    And in partnership with DOE, SLAC and Stanford University 
have developed a new M&O contract. That new contract allows us 
to streamline processes that we use, and give back autonomy and 
local control to the laboratory so we can be more efficient and 
more effective in utilization of the resources that we have.
    Finally, in the last 55 years, SLAC has made significant 
contributions to basic science. Those contributions serve as a 
basis for the future. The 1,500 staff at SLAC are looking 
forward to the future so that we can make even more 
contributions after these facilities are built.
    I'm happy to be here today, and thank you for the 
invitation. I'm looking forward to the questions.
    [The prepared statement of Dr. Kao follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairman Smith. And thank you, Dr. Kao.
    And Dr. Kearns.

   TESTIMONY OF DR. PAUL KEARNS, DIRECTOR, ARGONNE NATIONAL 
                           LABORATORY

    Dr. Kearns. Chairman Smith and Ranking Member Johnson and 
Members of the Committee, thank you for the opportunity to 
appear before you. It's my honor to join my colleagues from 
Idaho, Lawrence Berkeley, Sandia, and SLAC to speak about the 
national laboratories and the world-leading innovation they 
deliver.
    I am Paul Kearns, Director of your Argonne National 
Laboratory. Argonne is managed by UChicago Argonne, LLC for the 
DOE Office of Science. At Argonne, our research pushes the 
boundaries of fundamental and applied science to solve complex 
challenges and develop useful technologies that transform the 
marketplace and change the world.
    In fiscal year 2017, Argonne employed 3,200 people in the 
Chicago area. Our budget was $751 million with approximately 80 
percent of the funds from DOE and the balance from the 
Department of Homeland Security, other government agencies, and 
the private sector.
    Argonne's major strategic initiatives are targeted to 
deliver breakthroughs in science and technology in areas that 
support DOE's mission and reflect our vision for the future. 
They include hard x-ray sciences, advanced computing, materials 
and chemistry, manufacturing and science, and the fundamental 
study of the universe. Our unique scientific facilities include 
a world-leading x-ray source, particle accelerator, 
supercomputers, and a nanoscience--a nanoscale science center.
    As the nexus for thousands of visiting researchers and 
collaborators, these facilities extend Argonne's impact beyond 
our own laboratory. At the Advanced Photon Source national user 
facility we use hard x-rays to characterize materials at the 
atomic and molecular level to understand, predict, and control 
their properties. The APS is helping Argonne make additive 
manufacturing more reliable and hypersonic flight possible. One 
of the most successful drugs used to stop the progression of 
the HIV virus into AIDS got started at the Advanced Photon 
Source.
    The Advanced Photon Source upgrade will create a world-
leading ultimate 3-D x-ray microscope, enabling researchers to 
observe individual atoms interacting in real time. This new 
microscope will make it possible to see changes at the 
molecular level such as before a steel girder starts to crack, 
before a healthy brain succumbs to Alzheimer's, and before an 
electric car's battery begins to fail.
    At the Argonne Leadership Computing Facility, two of our 
supercomputers are among the 20 fastest in the world. We've 
applied our high-performance computing to challenges in energy, 
materials, extreme weather, and more. The ALCF is part of the 
multi-lab initiative with the National Cancer Institute and the 
Department of Veterans Affairs to apply big data and artificial 
intelligence to health care and genomic data to determine 
optimal treatments, improve outcomes, and reduce cost.
    In 2021, ALCF will welcome Aurora, an exascale system that 
will be at least 50 times faster than the most powerful 
supercomputers in use today. Argonne's efforts in exascale are 
part of DOE's larger exascale computing initiative.
    Argonne's knowledge and facilities, coupled with our 
approach to deploying these assets, distinguishes us as an 
institution. We work across the continuum from basic discovery 
to use-inspired to translational science in order to deliver 
positive societal impact. Conventional wisdom states that 
translating scientific advances and impact is a decades-long 
process. The national laboratories, as you've heard today, have 
long worked to accelerate this process by enabling researchers 
to execute more experiments in the same amount of time.
    Advanced computing in the form of deep learning, machine 
learning, and artificial intelligence is providing a powerful 
new boost to the speed of discovery. Argonne's energy storage 
work, dating to the 1960s, is an excellent discovery-to-impact 
model upon which to build.
    In the mid-1990s, the DOE supported investigations aimed at 
a more stable and greater capacity electric vehicle battery. In 
2000, we patented our signature battery cell technology, and in 
2007 began licensing it for mass production. In 2011, our 
technology made its market debut in the Chevy Volt.
    When it comes to next-generation batteries, the Joint 
Center for Energy Storage Research, JCESR as we love to call 
it, which is led by Argonne partnered with 20 other entities, 
has literally and figuratively changed the formula. JCESR has 
yielded revolutionary new battery materials in an operations 
model to optimize entities from many sectors working together.
    We're taking our storage--energy storage experience to new 
frontiers, including catalysis, materials for clean water. 
We're also working on quantum materials with--which promises 
nothing short of a revolution in computing speed and accuracy. 
Argonne and the University of Chicago have set up the 
QUANTUMFACTORY, an experimental facility, and have collaborated 
with Fermi National Accelerator Laboratory on the Chicago 
Quantum Exchange to enable graduate students to learn from 
national laboratory scientists and academics.
    America's national laboratories are powerhouses of science 
and technology. My fellow Laboratory Directors and I appreciate 
this Committee's continued support for the national laboratory 
system and your commitment to leadership in science and 
technology. Our national laboratory infrastructure is the envy 
of the world. The DOE and its laboratories are advancing 
projects that will keep the United States at the forefront of 
innovation for decades to come.
    Lastly, before I close, I'd like to thank this Committee 
for its leadership in advancing legislation through the House 
of Representatives to improve and update critical science 
infrastructure across the national laboratory complex including 
H.R. 4377, the Accelerating Americans Leadership in Science 
Act, which, among other important priorities, authorizes 
funding for the APS upgrade project.
    Thank you for your time, and I welcome your questions.
    [The prepared statement of Dr. Kearns follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Chairman Smith. Thank you, Dr. Kearns. I recognize myself 
for questions, and let me address my first one to Dr. Peters. 
Dr. Peters, in your prepared testimony, you expressed some 
concern that the national labs are losing their position as 
trusted advisors to the Department of Energy. What steps is DOE 
taking to maximize the effectiveness of labs in your opinion?
    Dr. Peters. Thank you, Mr. Chairman. The Department has 
reengaged us as a group in a really meaningful way. It's--as I 
said in my summary, it started with Secretary Moniz, and it's 
continued with Secretary Perry and his team. So we're--we have 
active nearly day-to-day engagement with them on aspects 
related to how we operate the laboratories but also more 
importantly the strategic directions of the Department, and 
particularly now with the Under Secretaries in place, there's a 
lot of back-and-fourth about research priorities and whatnot, 
so I think we would collectively say the partnership is headed 
in a very positive direction.
    Chairman Smith. Okay. Good. Thank you.
    And, Dr. Kearns, we talked about this earlier today, but 
you mentioned that JCESR's goal is to develop next-generation 
batteries that deliver five times the energy at 1/5 the cost. I 
think we all know that the key to success for encouraging the 
use of alternative fuels and energy is a better battery, a more 
efficient battery, a lighter battery, and a battery with 
greater storage. And when we have that breakthrough, we'll, I 
think, change the energy world. How close are we to developing 
that kind of battery, the kind of battery that you've been 
working on, the five times energy at 1/5 the cost?
    Dr. Kearns. Progress has been substantial. Significant 
progress is being made. I'm happy to report that by working 
with our colleagues from four of the other national 
laboratories and five universities, along with the members, 
representatives if you will from industry, we've made good 
progress in terms of the discovery of new materials that are 
less expensive. They do allow greater energy storage, energy 
density to be stored and will last much longer, so significant 
progress is being made.
    We've achieved the cost objectives that we talked about in 
terms of five times less expensive, in terms of the materials 
that have been discovered through JCESR. We've made good 
progress as well in terms of energy density, the developments 
applied to both grid and transportation if you will, storage 
technologies. I'd also report that we've had three spinout 
companies, technologies that people have come and taken a look 
or perhaps helped us develop and then taken to--really into the 
innovation pipeline to really result in commercial-scale 
products, so progress has been good.
    Chairman Smith. Okay. Would you want to hazard a guess when 
such a battery would be commercially available?
    Dr. Kearns. I'm afraid--well, I don't think I can really 
guess that.
    Chairman Smith. How about an order of magnitude----
    Dr. Kearns. Okay. Okay.
    Chairman Smith. --next two or three years maybe?
    Dr. Kearns. The pace of innovation is accelerating.
    Chairman Smith. Yes.
    Dr. Kearns. You know, I think certainly within the next 
five years, we'll see a very dramatic change in the field of 
energy storage both in terms of grid and transportation 
technology.
    Chairman Smith. Okay. Good. Thank you. Final question to 
all of you all, and that is what steps are the national labs 
taking to reduce the cost of nuclear power? We all know that 
nuclear is clean, it's a little expensive. If we're going to 
encourage the use of it, we need to reduce the cost. So what 
steps are you taking and how optimistic are you that we will be 
able to reduce those costs? And I guess we'll just work our way 
through Dr. Peters and then Dr. Seestrom.
    Dr. Peters. Thank you, Mr. Chairman. First on the existing 
fleet, as I summarized the DOE's Light Water Reactor 
Sustainability Program that INL and Oak Ridge and Argonne all 
have a role in is focused on trying to not only sustain the 
existing fleet but also drive down operating costs for the 
existing fleet, so that's one. In advance reactors I think 
going to modular construction, modular manufacturing and 
construction and--but the advance reactors I think are the 
opportunity to really--to do research and development to try to 
drive down system costs because the economics of nuclear, it's 
probably the thing that has to be addressed.
    Chairman Smith. Great. And, Dr. Seestrom?
    Dr. Seestrom. No comment on this one.
    Chairman Smith. Okay. Dr. Maxon, no comment?
    Dr. Maxon. No comment here. Okay. Dr. Kao?
    Dr. Kao. No comment.
    Chairman Smith. Oh, my gosh. This is--you don't have--I 
mean, there's an old adage that scientists should be able to 
talk one minute on any subject, so--but we won't push you.
    And Dr. Kearns?
    Dr. Kearns. I will offer a couple of thoughts, and one is, 
as Mark mentioned, Dr. Peters mentioned, we are active--very 
active in terms of collaboration with both Idaho and Oak Ridge 
in advanced nuclear energy, and one of the current efforts 
underway that I think is really a great model in terms of 
working with industry is GAIN, the Gateway for Acceleration of 
Innovation in Nuclear Technologies, and so we're really pleased 
to be a part of that. And Mark probably can speak more 
eloquently than I to the impact, but it's really a wonderful 
opportunity if you will for companies interested in nuclear 
technology, developing advanced reactor technologies to really 
come and engage with the Department and its laboratories, use 
our facilities, and partner shoulder-to-shoulder with our 
researchers, and so it's really a great opportunity in that 
way.
    Let me pass it back to Mark in case he wants to say 
anything more specifically on GAIN.
    Chairman Smith. Okay.
    Dr. Peters. Is that okay, Mr. Chairman, if I just--could I 
just elaborate a little bit?
    Chairman Smith. Sure.
    Dr. Peters. So, yes, thanks, Paul, very much.
    And I would tie it back to this Committee's had a lot of 
discussions about R&D testbeds and the ability of government 
sites to ultimately demonstrate technologies. That's what GAIN 
is. That's what the Gateway for Accelerated Innovation in 
Nuclear is. So what you all are talking about in your 
deliberations is actually starting to happen out there.
    Chairman Smith. Good. Okay. Very good news. Thank you all.
    And the Ranking Member, Ms. Johnson, is recognized for her 
questions.
    Ms. Johnson. Thank you very much. To all witnesses, if the 
President's proposed budget for fiscal year 2019 was enacted, 
DOE's renewable energy R&D portfolio would see a 60 percent 
reduction. The sustainable transportation budget would get a 70 
percent cut, and energy efficiency activities would be cut by 
80 percent. It would cut critical research on the electric grid 
by over 50 percent and would cut nuclear energy and fossil R&D 
by 25 percent each. And it would eliminate ARPA-E and the Loan 
Programs Office. I'd like each of you to please describe the 
impact of these proposed cuts on the research capabilities and 
personnel of each of these labs, and then what are the 
consequences of drastically reducing U.S. R&D for U.S. 
competitiveness in a globalized economy?
    Dr. Peters. Thank you, Ranking Member Johnson, for the 
question. So I'll speak at it from the perspective of the 
Applied Energy Programs because that's really what effect I 
know. So we get funding from the Office of Nuclear Energy, 
Energy Efficiency, Renewable Energy, and the Office of 
Electricity, all three. If we were to--if those cuts as propose 
we're to be realized, we as a laboratory would have effects and 
capabilities in applied materials science and engineering, in 
chemical engineering and nuclear chemistry and nuclear 
engineering, as well as in user facilities, so there would be--
we wouldn't lose capability but we would have impacts on those 
capabilities.
    Now, I don't have to remind you that this is a process, and 
so--but the numbers, if we took it at face value, would be 
order of ten percent of the INL workforce. But watching the 
process play out, I'm not anticipating significant reductions 
once Congress weighs in, and we will respond to Congress' 
appropriations.
    Dr. Seestrom. Thank you, Congresswoman. Sandia has a 
substantial portfolio in Applied Energy Programs, roughly $140 
million. Without seeing the details of the cuts, it's hard to 
say the exact impacts to our programs, though it's surely true 
that many deliverables would be slowed down. Because of our 
broader national security portfolio, we have some ability to 
move staff between our energy programs and other programs in 
the lab, so we don't anticipate that we'd have any reduction in 
force but would certainly lose traction on important research.
    Dr. Maxon. At Berkeley Lab I guess I would say the same 
situation is true, that without the details it's really hard to 
know how these cuts would manifest. That said, we could predict 
something on the order of 100 FTEs lost in particular areas of 
the lab. I mentioned the Agile BioFoundry as one particular 
collaboration facility that's funded by EERE. There would be 
serious impacts to that, and that affects not only academic 
users but also industry as well.
    And finally, I would mention the FLEX Lab, which is a fully 
instrumented collaboration facility that's used by a large 
number of academic and industry users. There would be some 
serious effects there as well.
    Dr. Kao. For SLAC, Congresswoman, since we have a 
relatively small program in EERE the impact would really be 
small.
    Dr. Kearns. And at Argonne about ten percent of our funding 
comes from the Applied Energy Programs, and much like other--my 
other colleagues here, it's a little hard to know really what 
the impacts would be without the specifics of the program in 
terms of where the cuts would be made.
    I will say Argonne works across the spectrum, as I talked 
about, a continuum from discovery science to use-inspired to 
translational science and certainly funding for the Applied 
Energy Program is really--allows us to complete that continuum 
if you will and really work closely with industry, so we're 
strong supporters of the applied energy portfolio in the 
Department and would encourage the Committee and Congress in 
general to continue its hard work on behalf of those programs.
    Ms. Johnson. Could you comment on the elimination of ARPA-
E? Either one?
    Dr. Peters. I mean, INL doesn't currently have active ARPA-
E projects, so I can't speak at it from the lab's perspective. 
I will say that from the broader perspective in my opinion, 
I've watched ARPA-E and I've seen a lot of success come out of 
ARPA-E.
    Dr. Kearns. I would also add, if that's okay, to that 
comment by indicating that ARPA-E--you know, one of the 
requirements for funding there is that we bring an industry 
partner, an industry partner brings in the laboratory if you 
will to apply for the funding there, and so it's a great model 
of working with industry I believe.
    Ms. Johnson. Thank you very much. My time is expired.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Oklahoma, Mr. Lucas, is recognized for 
his questions.
    Mr. Lucas. Thank you, Mr. Chairman. And I thought that one-
minute rule on any subject applied to Members doing town 
meetings. Weak attempt at humor.
    Dr. Maxon, in your prepared testimony you discuss Berkeley 
Lab's extensive work in fundamental biological sciences, as 
well as technology to create better biofuels, more resilient 
crops, and bio-based chemicals. And in all fairness, I have the 
privilege, in addition to serving on this great Committee, of 
serving on the Ag Committee. And I'm a farmer by trade, so 
let's expand for a little bit. Could you provide more 
information on how researchers at Berkeley are improving these 
processes?
    Dr. Maxon. Thank you for that question. I'll take a shot at 
that. From an agricultural perspective, I mentioned the 
microbiome science, the uncharted territories of the billions 
of organisms that are in every gram of soil. One could imagine 
that, with a deeper understanding of how these microbials 
communicate with each other and influence the environments 
around them, it's not too far-fetched to suppose that there 
would be opportunities to improve, through the soil itself, 
abilities to provide fewer inputs to the soil, that plants 
would be able to--crops would be able to get along with less 
water, less fertilizer because the microorganisms themselves 
could be enhanced to deliver those nutrients like nitrogen and 
phosphorus directly to the crops.
    Mr. Lucas. Well, along that line, your testimony mentions 
the Joint BioEnergy Institute, JBEI, and looks at improving 
those bioproducts at the molecular level. Give us some examples 
of how JBEI can accomplish this but only in a national lab-
competent environment.
    Dr. Maxon. Yes, thank you. So you can imagine that one such 
bioproduct could be an enhanced biofuel crop, one that's got 
more sugars to convert to fuels or chemicals that are 
desirable, and as well as the chemicals themselves, one can 
imagine that new types of plastics with higher desirable 
properties and thermal behaviors, as well as, for example, 
enzymes. Laundry detergent enzymes are ones that we use every 
day. That particular market, for example, is on the order of 
$6.2 billion, so being able to do end-to-end scientific 
discovery from discovery to use-inspired and then hand off to 
companies is something that the national labs and JBEI in 
particular is very good at.
    Mr. Lucas. Taking this one step further, I'm also 
fascinated by the nexus between high-performance computing 
research at Berkeley, particularly how Berkeley is using the 
supercomputers to analyze massive amounts--I think that's the 
appropriate phrase, massive amounts of biological data to learn 
more about everything from microbes to biofuel. What are the 
limitations to today's computing systems when you're trying to 
solve these complex biological challenges?
    Dr. Maxon. We as biologists are, I would say, a bit behind 
some of the other fields such as physics in big data 
understanding and approaches. So I think one of the limitations 
is trying to impart if you will our bioinformatics approaches 
that we use today to analyze genomes and predict protein 
clusters and those important aspects to a high-performance 
setting. We don't have the right kinds of algorithms, and 
biologists and computing scientists don't even speak the same 
language. So I think one is technologies themselves. I think 
the other is bringing the disciplines together to work more 
productively like physicists and computer scientists do.
    Mr. Lucas. Expand for just a moment on the technology side 
of that equation, the physical part where we--where you need to 
be going.
    Dr. Maxon. Yes, so this is not my area of expertise, but 
when you think about using computers that have multiple cores, 
that means the algorithms run very differently than the 
computers that don't use multiple cores, and so the things that 
we are set up to do today--let's say analyzing a genome--can 
take on the order of, I don't know, 40 days. You--transporting 
that with new hardware and new software to a high-performance 
platform, you can do the same type of analysis in about an 
hour.
    Mr. Lucas. Thank you, Doctor. And I would hope my dear old 
freshman agronomy professor from Oklahoma State, Mr. Chairman, 
would be proud that I focused on the important issues. Thank 
you. I yield back.
    Chairman Smith. Thank you, Mr. Lucas.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for questions.
    Ms. Bonamici. Thank you very much, Chairman Smith and 
Ranking Member Johnson and all the witnesses, and happy Pi Day. 
Before my questions, I want to recognize Muhammad and Raley, 
who are high school students from Oregon who are here today. 
They are finalists in the Regeneron Science Talent Search, so 
please welcome them and keep your eye on them. They are our 
future leaders.
    So to the witnesses, President Trump has released his 
budget for 2019, and I'm very concerned with many of the 
proposals. Our nation is dealing with a growing global demand 
for energy, for over--we have an overreliance on fossil fuels 
and harmful emissions that are contributing to climate change. 
We need to be investing more, not less in research and 
development programs, especially to keep our air and water 
clean.
    Oregon has been a leader in renewable energy projects, and 
I'm interested in hearing from our witnesses about how to 
advance these efforts nationwide.
    Dr. Kearns, I'm glad you're here today with your background 
at the Pacific Northwest National Laboratory.
    The office in Portland has led efforts to improve energy 
efficiency in residential and commercial buildings; to 
strengthen renewables such as wind, water, solar; and to expand 
storage systems for electric vehicles. The innovative work of 
labs like PNNL benefits from consistent federal investment, but 
unfortunately, Congress has been governing crisis to crisis 
with a series of short-term continuing resolutions. That lack 
of consistency affects research, but it also affects 
infrastructure. For example, facility upgrades or new 
construction cannot begin. The United States is competing, as 
we know, against other countries that have dedicated, 
significant, long-term funding to science and research.
    So could each of you discuss your perspective on how the 
lack of stability and funding has affected projects at your 
labs and how that affects our global competitiveness? And I do 
want to reserve a little bit of time for another question. Dr. 
Kearns, would you like to start?
    Dr. Kearns. Certainly. As Dr. Peters commented in his 
introductory remarks, stability and funding is really 
critically essential for, if you will, working across the 
continuum of research that I spoke to in terms of discovery 
science, use-inspired science, and translational science, and 
so it's important that there be a stability of funding so that 
one can do the needed planning and actually conduct the 
research and have it proceed in a way that allows 
accomplishments or expected expectations to be realized, so 
it's very critical in that regard.
    Ms. Bonamici. Thank you. Anybody else want to add on to 
the--how the lack of consistency in funding has affected your 
work?
    Dr. Kao. Maybe I can add something? So a lot of us actually 
are involved in construction of major projects. These funding 
profiles, if you have a continuing resolution, if you're on the 
upswing curve, you're stuck with a lower level from the year 
before, that tends to extend the total length of the project 
and increase the cost.
    Ms. Bonamici. Does anybody want to comment on how that lack 
of consistency is affecting our competitiveness globally? Dr. 
Seestrom, I know you--you look like you're ready to speak.
    Dr. Seestrom. So I would make two comments, one, that I 
think it's quite scary globally. You know, several of our staff 
recently returned from a solar energy conference in China, and 
their work is quite impressive. They have large efforts in 
renewable energy. I think that other countries aren't slowing 
down. And, you know, our scientists can work on many things, 
and when we have funding shortages, they will walk with their 
feet to the things that are funded.
    I'll mention from our NNSA mission, not energy specifically 
but, you know, funding delays have impacted our major--one of 
our major starting LEPs, the W80-4. It's hard to start any new 
project when you have continuing resolutions.
    Ms. Bonamici. Right. And I'm going to ask Dr. Kearns, Dr. 
Maxon, what role does energy storage play in promoting clean 
energy? For example, at the National Energy Technology 
Laboratory in Albany, Oregon, where they're currently 
developing sensors and controls that enhance the efficiency of 
power plants and the electric grid, their efforts should be a 
model. Energy storage has implications of course for national 
security and competitiveness as we move toward lower-emission 
and zero-emission energy sources. So what about energy storage 
and promoting clean energy, reducing emissions, and increasing 
efficiency of the grid? Is our nation staying competitive in 
energy storage technologies? Dr. Maxon?
    Dr. Maxon. Energy storage technology is not my area of 
expertise, but I do know at Berkeley Lab there is an industry 
consortium that's spun out of our focus on energy storage, and 
this industry consortium called CalCharge is enabling the 
stakeholders to work together and collaborate in whole new ways 
to accelerate more technology development.
    I would say, though, that it's very likely that with a more 
consistent funding profile that we'd see more advances more 
quickly.
    Ms. Bonamici. Thank you. And I see my time is about to 
expire. Thank you. I yield back. Thank you, Mr. Chairman.
    Chairman Smith. Okay. Thank you, Ms. Bonamici.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for your leadership over the years on this and other 
issues where you have provided us great hearings like this that 
are expanding our understanding of science and the important 
role that people like this are playing, so thank you very much.
    Mr. Chairman, one of the things that I have been frustrated 
about with the scientific community--and maybe it shouldn't be 
frustration with the scientific community; I should--I'm going 
to ask your opinion on that--is we seem to be still basing our 
electricity production on things that are either risky or too 
dirty, you know? Or something like that. Maybe--could you--and 
I have understood over the years that we actually have the 
capability of producing, for example, the next generation of 
nuclear power. In fact, Dr. Peters, you mentioned that 
research. Where are we right now? And getting away from light-
water reactors and into the next generation of reactors that 
are safer and actually have a lot of potential, could you--
where are we at?
    Dr. Peters. So thank you, Congressman. So first on the 
existing fleet, I wouldn't characterize them as dirty or 
unsafe. That would be my first comment. They're operating 
safely and securely, and they will continue to do so for 
decades. That said, there is an exciting number of new advanced 
reactor concepts that are emerging.
    Mr. Rohrabacher. Well, I was actually talking about other 
sources----
    Dr. Peters. I figured. I just thought I'd put that in 
there.
    Mr. Rohrabacher. Okay.
    Dr. Peters. I won't go with the other part of this. So--but 
the advanced reactor, there's a lot of companies that are 
emerging. I know you're familiar with General Atomics. They're 
not emerging; they've been around for a long time, but they've 
got some interesting concepts. There are startups that are 
popping up, and they're working with the labs, so some of those 
companies are talking about having First Commercial in 2025 to 
2030.
    Mr. Rohrabacher. We actually have prototypes working of the 
next generation of nuclear power?
    Dr. Peters. We--when can we?
    Mr. Rohrabacher. No, do we have any?
    Dr. Peters. We do not.
    Mr. Rohrabacher. And we've spent billions of dollars, 
billions of dollars of research on this, and yet we don't have 
even a prototype working. Now, is this lack of progress due to 
being stymied by scientific obstacles that we can't seem to get 
past, or is this a result of regulation and bureaucracy?
    Dr. Peters. It's actually the--I'm not a company that's 
trying to innovate and develop a concept, but I would tell you 
they would probably tell you it's capital. Finding private 
capital to take it to the next step is probably their biggest 
hurdle.
    Mr. Rohrabacher. Capital. But we have--in the meantime, 
we've spent billions of dollars supposedly on research.
    Dr. Peters. And we have, and we've done that research. And 
so they're prepared to take it to commercial, but they have to 
seek significant private capital to take it to the next step. 
There's a partnership with the Federal Government, but you 
can't expect the Federal Government to carry the entire freight 
for commercializing their unit, so they're going to have to 
find additional private capital.
    Mr. Rohrabacher. Well, I would hope that that would be one 
of our major goals is to finally have--with all the great 
research that has been done on getting us away from light-water 
reactors, which I believe are dangerous and leave us with 
basically pollution in the sense that we have to store the 
nuclear rods forever. We should get away from that and we 
should be going onto this next generation. And so thank you 
very much. I would hope that that message gets through.
    One--and on the end there, Mr. Kearns, you were talking 
about the batteries. In the Chairman's hometown in Austin 
Texas, Dr. Goodenough has been--has supposedly had a 
breakthrough and--a major breakthrough on this. Would you say 
that this is accurate? Is it a breakthrough or is it being 
hyped?
    Dr. Kearns. I'm not--unfortunately, I'm not that familiar 
with the breakthrough that's been described. I've heard some 
things in the press, and it sounds impressive certainly, and it 
certainly would--I pay a great deal of respect to Dr. 
Goodenough. I think it certainly warrants some additional 
follow-up.
    Mr. Rohrabacher. And, Mr. Kao, you were shaking your head 
yes about--you seem to--do you know about that project?
    Dr. Kao. Yes, but like all science, you need more people to 
go into it and repeat and to make sure it's all correct.
    Mr. Rohrabacher. But would you say that on your preliminary 
look on this----
    Dr. Kao. The concept, yes.
    Mr. Rohrabacher. So you--okay. We had another panel here of 
course talking about that, about batteries and most everybody 
gave it a good thumbs-up. What we are interested in making sure 
is that the money that we are spending on research actually is 
not done for the sake of research but instead is done to make 
sure we're doing things that improve the life of the people on 
this planet. And that's why I'm sort of trying to focus on the 
next generation of nuclear power and things such as that. And 
we're behind you, and we like--we want things to be done more 
efficiently, but we also want to make sure the results are 
actually put into practice in a way that will improve life. So 
thank you very much.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentleman from California, Mr. McNerney, is recognized 
for his questions.
    Mr. McNerney. Well, I thank the Chairman, and I think I cut 
in front of the gentleman from New York----
    Mr. Tonko. But he's not yelling.
    Mr. McNerney. Okay. But he's going to let me do this. I'd 
ask, could anyone on the panel enlighten me on the distinction 
between early-stage and late-stage research or is that sort of 
a fantasy to think that there's such a distinction? Anyone on 
the panel want to take that?
    Dr. Seestrom. So there are different ways one talks about 
research. The DOD uses technical readiness levels. It's a 
continuum, as I think Dr. Maxon said. We like to think about in 
terms of basic research. As a national security lab, we do a 
bit of that, but our focus is on use-inspired going to really 
applied research. I think the key distinction is how you can 
cross that valley of death between when you know the science 
and the technology, but the receiving end in industry is not 
yet sure enough to invest their money to see they have a 
product.
    Mr. McNerney. So I've heard a lot about the valley of 
death, and in fact I was in industry for a while, so I know 
personally about it. Wouldn't it be better to think of it on a 
case-by-case basis than saying, well there's early-stage and 
late-stage research and we have to defund late-stage research?
    Dr. Seestrom. I do not see that it's useful to talk about 
defunding any research based on that distinction.
    Mr. McNerney. Thank you.
    Dr. Peters. May I--sir, may I--
    Mr. McNerney. Sure.
    Dr. Peters. --real quick? To your last point I would draw 
out nuclear energy as--it is case-by-case in some sense. The 
Federal Government role for getting to commercial nuclear 
energy technologies is different perhaps than it might be for 
another energy technology, and as you know, there's been a 
long-standing federal partnership with the private sector but, 
you know, doing the science, doing the applied science, but 
actually going out to first-of-a-kind demonstrations for some 
of these advanced technologies is probably--there's probably an 
important government role in there, so that's important to 
remember.
    Mr. McNerney. Well, thank you. And there's some significant 
cuts we're seeing in the Administration's budget. You've got to 
think that the valley of death is going to get wider with that 
sort of a cut. Is that a good assessment? I see headshaking but 
that's about it. Nobody wants to speak up.
    So, given the budget cuts, does anyone want to talk about 
what their--what specific--a specific program that they like 
that's going to suffer from this? I mean, fusion, for example, 
we're going to suffer because we need to be invested in ITER. 
Even though it's taking place overseas, America gets a lot of 
bang for that buck. Are there any other programs that anyone 
wants to talk about that are going to see harmful cuts that are 
going to harm our national interests? Yes, Ms. Maxon?
    Dr. Maxon. I'd like to mention that for the Department of 
Energy's Biological and Environmental Research program, there 
are some serious proposed cuts to earth and environmental 
science studies, and from my perspective, if you think about 
understanding the subsurface, this is important because that's 
where carbon, nitrogen, and phosphorus, all these building 
blocks of life are. And that particular program that I just 
mentioned studies the watershed system and how the water--how 
do we--what about drought resilience and how do the nutrients 
and contaminants move underground? I think that's a very 
serious--that would be a very serious loss, our ability to 
predict resilience in local communities to extreme weather.
    Mr. McNerney. Well, since I'm from California I 
sarcastically don't care about drought resilience.
    Yes, Dr. Kearns?
    Dr. Kearns. Yes, I just would like to build on that a 
little bit in terms of biological and environmental research. 
One of the key things that's underway there in the earth and 
environmental systems sciences program is really the evolution 
if you will or further development if you will of our system's 
computer models to actually run on our new exascale systems, 
and so it's a critical component that needs--requires continued 
investment, continued support in terms of funding.
    And it does really--you know, development of enhanced 
models here really improves our ability to understand the 
global hydrologic cycle. It gives us deeper insights, as has 
been mentioned, into future droughts, floods, wildfires, and 
other concerns I know in California in hurricanes and 
agricultural sustainability as well, so many topics that have 
been touched on here today, so critically important that we 
continue to invest so that we can further our understanding.
    Mr. McNerney. Are labs an important element in bringing 
together scientific collaboration? Is that going to be harmed 
by these kind of cuts? Yes, Ms. Maxon--Dr. Maxon.
    Dr. Maxon. It's my opinion that the labs are really an 
integrator of communities of researchers. You've heard about 
the scientific user facilities. That's an obvious example. But 
there are other programs like, as mentioned before, the Joint 
BioEnergy Institute, for example, that brings together 
universities and national labs and companies to work together 
on problems, so I do think that this is seriously at risk, the 
integrator function and collaborations.
    Mr. McNerney. Thank you. Mr. Chairman, I'll yield back.
    Chairman Smith. Thank you, Mr. McNerney.
    And the gentleman from Texas, Mr. Weber, the Chairman of 
the Energy Subcommittee, is recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    Dr. Peters, I'm going to move over here a little to my 
left. It'll be one of the rare times I do. This Committee has 
taken a leading role in advocating for advanced nuclear energy 
research. Specifically, my bipartisan nuclear energy research 
legislation has passed the House on multiple occasions. This 
bill would authorize the construction of a research reactor, a 
versatile neutron source. I wish the gentleman from California 
was here but--Mr. Rohrabacher could hear this questioning--
which you mentioned in your testimony the nuclear versatile 
neutron source. And it'll open up for national labs for the 
development of prototypes for advanced reactors. That's the 
aim.
    So, Dr. Peters, why is it important in your opinion for the 
Department of Energy to invest in a research reactor?
    Dr. Peters. So we--thank you. Thank you, Mr. Chairman. 
Thank you for all the support of what we do.
    So just quickly, we do operate test reactors already. INL 
operates the advanced test reactor and the transient test 
reactor, two large reactors. The high flux isotope reactor is 
operated at Oak Ridge. So they operate at a certain--not to get 
too much into the physics, but they produce thermal neutrons as 
opposed to fast neutrons, which your new proposed reactor would 
do.
    So we have that capability, but if a company or a 
university professor or lab person wants to do research on 
materials that would be apropos to a reactor that's operating 
in a fast neutron spectrum, they have to go to a place like 
Russia or a place like China to get those fast neutrons. So, 
right now, the United States does not have that capability.
    Mr. Weber. Right, and that's unacceptable. I think Dr. 
Maxon said earlier about companies are reluctant to invest 
until they see the dependability of something coming on.
    So if the United States does fall behind--you mentioned 
Russia and China--that has international implications in 
nuclear research?
    Dr. Peters. It does, and it also has national security 
implications more broadly. If we're not--if we don't have a 
strong civil nuclear sector, we don't have a seat at the table 
internationally.
    Mr. Weber. Right. Well, I want to go back to Chairman 
Smith's question about the battery for Dr. Kearns. Can you give 
us the time frame on when that five times more powerful 
battery--when can we expect this versatile neutron reactor?
    Dr. Peters. Oh, the versatile fast neutron source could be 
in place, pending appropriations, in 10 years.
    Mr. Weber. Ten years, okay.
    Dr. Peters. Yes. Yes.
    Chairman Smith. Well, we get a better answer from Dr. 
Kearns, who said within five years.
    Dr. Peters. Yes, right.
    Mr. Weber. Okay. All right. So can we----
    Dr. Peters. Well, it's nuclear versus battery, sir, so----
    Mr. Weber. So maybe we need to have some bidding going on 
here. If this legislation is signed into law, what role do you 
expect INL to play in designing and building this test reactor?
    Dr. Peters. We already have a team formed with actually 
Argonne and Oak Ridge. My hope is is that it would be built at 
the INL. I've got a place picked out that's ready to go, but 
we've got a team for them, so as appropriations come on, we're 
ready to run.
    Mr. Weber. Okay. And, Dr. Kearns, how about the Argonne 
National Lab? We seem like we have some collaboration going on 
here.
    Dr. Kearns. Oh, yes, absolutely. And certainly Chairman 
Smith paid a very nice tribute if you will to Enrico Fermi, 
really the founding further of Argonne, in his opening 
comments. And Argonne's maintained if you will a deep expertise 
in nuclear technology from day one, and we are very actively 
partnered with Idaho and Oak Ridge really in terms of 
development in the new test reactor. We like to think that 
there's a little bit of Argonne in every nuclear power plant 
that's been built, and certainly we continue to really want to 
participate in a very active way in supporting the development 
of the test reactor----
    Mr. Weber. So is it your testimony here today that you'll 
put pressure on him to get it down to five years?
    A question for all of you in my last minute. Last Congress, 
the House passed the America COMPETES Reauthorization Act, 
which provided National Laboratory Directors with the 
flexibility--the ability to authorize cooperative research 
agreements in priority research valued at up to $1 million. 
Good thing, bad thing? Dr. Seestrom, I'll go to you.
    Dr. Seestrom. I think it's a very good thing.
    Mr. Weber. Okay.
    Dr. Seestrom. These kind of CRADAs advance our interests 
substantially. I'll just mention one example. Sandia has worked 
with Goodyear through CRADAs for over 25 years. We brought our 
advanced modeling and simulation capabilities to their business 
of designing tires. You might not think that nuclear weapons 
and tires have a lot in common, but the kind of material 
interactions that we deal with in both areas are significant.
    Mr. Weber. Okay.
    Dr. Seestrom. They're able to improve their time to market, 
and we're able to improve the codes that we do for the nuclear 
weapons.
    Mr. Weber. Perfect. Let me move to Dr. Maxon. Good thing, 
bad thing?
    Dr. Maxon. Definitely a good thing. I--well said. I can't 
add much more. We have plenty of examples, too.
    Mr. Weber. Okay. Dr. Kao?
    Dr. Kao. Good thing as well.
    Mr. Weber. Dr. Kearns?
    Dr. Kearns. Yes, a very good thing, very----
    Mr. Weber. Okay. Dr. Peters?
    Dr. Peters. Good thing, and we need more things like it.
    Mr. Weber. Okay. And we're working on that.
    Mr. Chairman, I've got three seconds I yield back to you.
    Chairman Smith. Thank you, Mr. Weber.
    The gentleman from New York who should have been recognize 
earlier, Mr. Tonko, is recognized now.
    Mr. Tonko. It's all right, Mr. Chair. Thank you. And 
welcome and thank you to our members of the panel.
    Our national labs are I think a best-kept secret at times 
and a tremendous empowering resource for this nation. And so 
including our national lab at Brookhaven in my home State of 
New York, you're leading us into the future using fundamental 
science that will change our understanding of the world around 
us and our universe.
    I'd like to continue along the questioning that 
Congressmember Bonamici indicated on energy storage. How can 
energy storage be combined with utility-scale solar and wind 
farms to help reach our clean energy and environmental goals in 
the longer term? Dr. Kearns?
    Dr. Kearns. Yes. I believe energy storage is really--would 
be a great enhancement if you will to utility-scale solar and 
wind as well. As you know, those sources tend to be 
intermittent depending upon the climate and the weather if you 
will, and so it's important to have a way to store energy 
produced in that way so that we can discharge it when needed 
and really have the additional reserve if you will. And it also 
provides for a better balance across the--if you will the grid, 
really allowing electricity to be deployed when and where 
needed.
    Mr. Tonko. Thank you. And, Dr. Peters, how could storage 
better enable a zero-emission hybrid energy system that 
includes both intermittent renewables and advanced nuclear 
power sources?
    Dr. Peters. It's--modular nuclear reactors and storage 
together are probably the way you change the game in my 
opinion. The future energy system is probably a lot of 
renewables and a lot of nuclear, but you have to have storage. 
But the way that modular reactors work, you can run some 
modules full out and others can be modulated to complement the 
storage. So we're doing a lot of work actually--INL along with 
National Renewable Energy Laboratory in particular--on so-
called hybrid energy systems, as you commented on, Congressman. 
So there's a lot of research going on already, and we're 
starting to engage in industry, both end-users, utilities, as 
well as energy providers to figure that out, but it's a quite 
exciting area of applied research.
    Mr. Tonko. Thank you. And, Dr. Maxon, the Office of Science 
was flat-funded in the budget request, but there were harmful 
cuts to important research within the Office of Science. The 
Biological and Environmental Research program would be cut by 
18 percent. Many would probably not be surprised to learn that 
BER is the largest sponsor of climate change-related research 
at DOE. And you talked about that impact on the earth and 
environmental systems sciences area. For those in the 
Administration or any that support these sort of cuts that 
think climate change is unsettled science, wouldn't it make 
sense then to further invest in the research to give us a 
clearer answer on the state of our climate?
    Dr. Maxon. Well, it's my opinion that understanding where 
critical elements that drive the Earth's biogeochemical 
cycles--carbon, phosphorus, nitrogen, sulfur. Understanding 
those things in great detail is really important not only for 
climate science but also for the biological sciences, too, so I 
do see a significant benefit.
    Mr. Tonko. Yes. And I really do believe a lot of our 
decision-making should be formulated by science and research. 
Our biological systems science has fared much better in the 
budget proposal, including increases to genomic science and 
flat-funding for the Joint Genome Institute. What are 
additional areas of opportunity that we should consider 
exploring for biological systems sciences?
    Dr. Maxon. I think that's a great question. One of the 
things that I think remains largely untapped is the bringing 
together of biological sciences and material sciences. I 
mentioned the Agile BioFoundry that exists to reduce the cost 
and increase the speed of generating biological products. We 
don't yet know how to make a lot of things that, for example, 
don't exist yet. As I mentioned potentially plastics that have 
profiles that are improved over others. How about things that 
don't exist yet? Shatterproof Bioglass, bringing together 
materials science and biological sciences, I think that's a 
great opportunity.
    Mr. Tonko. Wonderful. And in a few--half-a-minute we have 
left, what is the status of microbiome research at DOE?
    Dr. Maxon. DOE is a leader in microbiome research, along 
with the USDA, co-chaired the Microbiome Interagency Working 
Group that put together a strategic plan that I'm hoping will 
become public someday so we can see what the great 
opportunities are for the nation's microbiome science.
    Mr. Tonko. Wonderful. And thank you again for all the 
leadership you provide with our labs and for the resource that 
our labs happens to be.
    With that, Mr. Chair, I yield back.
    Mr. Weber. [Presiding.] I thank the gentleman.
    Mr. Hultgren, you're up next.
    Mr. Hultgren. Thank you, Chairman. Thank you all so much 
for being here.
    I think all my colleagues on this Committee and hopefully 
throughout Congress know my passion for our laboratories and 
just incredible work that you all do and just feel like it is 
such a vital part of who we are as a nation is our 
laboratories. And so I just want to congratulate you and thank 
you and celebrate but also know that we've got work ahead of 
us.
    Specifically, for me having the privilege of representing 
Fermilab and having Argonne just a few miles outside of my 
district, I get a chance to go quite often and see the truly 
groundbreaking work that happens and the breadth of research 
that is happening just between those two labs and then you put 
on top of it all of the other labs, it is wonderful and 
exciting, but I see unlimited potential if we continue to do 
the support we need to do and give you all the ability to do 
the long-term planning and present the visions of what could 
happen if you have that confidence of knowing that we are 
supporting you here in Congress. Really, the sky is the limit, 
so excited about that and just want to thank you for--all for 
being here.
    I had the great opportunity to also visit Sandia last May 
and Berkeley last September, and each lab was truly uniquely 
situated and breathtaking.
    Dr. Peters, since you and I met at Argonne, you've always 
been an incredibly valuable resource on nuclear security 
issues, as well as a strong champion for the steps the Nation 
need to take to realize the next generation of advanced nuclear 
power. I know Idaho National Lab is proud to have you, but I 
still kind of like the old name Argonne West if there's any way 
that you might be able to continue to work on that.
    One thing--and I'd ask my question for all of you if you 
can have maybe a quick thought or statement on this. One thing 
that I think is important about the work that you're doing is 
the ability that you have to inspire the next generation of 
young scientists. Here in the House we do a Congressional app 
competition, and a few years back I brought my winner through 
Argonne's computing facilities to show him what he could 
accomplish if he continued to learn how to code and improve his 
STEM skills.
    Fermi also brings in literally thousands and thousands of 
students every year for STEM activities, as well as teachers, 
who they train, how to make accelerators with high school 
students throughout the country.
    I wondered if each of you could talk a little bit about the 
STEM activities that your lab is involved in and how much of 
this is voluntary for staff. At Fermilab I know we have Science 
Saturdays, which is basically volunteer driven. Also, what 
authority from DOE might make it easier to work with students 
in classrooms across the country to help to get mentors and 
experts where they're needed most? Should DOE look at this as 
workforce development?
    And maybe we'll just go down the line, start with Dr. 
Peters, and if you have a thought of what your lab is doing, 
specifically focus on what we can do to help increase that.
    Dr. Peters. Yes, Congressman, great to see you again, sir.
    Mr. Hultgren. Good to see you.
    Dr. Peters. Argonne is still here.
    Mr. Hultgren. Good.
    Dr. Peters. But INL is a great place to be.
    Mr. Hultgren. It is.
    Dr. Peters. So we're doing a wide variety of things. Let me 
take--it is about workforce development for--to your final 
point. We're doing a lot of some direct funding from the 
government, quite a bit of our own indirect investment going 
back into it, but also a lot of volunteer.
    Some examples, we're doing a lot particularly focused on 
STEM, no surprise, but trying to bring kids to the lab, much 
like you see at FERMI and what you see at Argonne. It's the--
this isn't rocket science, right? You get them in there and get 
them excited.
    We're doing a lot of teacher professional development as 
well, bringing teachers in to show them what we do so that they 
can get the kids excited, but I love it when the kids actually 
come to the lab. We're building internship programs much like I 
was used to at Argonne at INL. Just last week, we had My 
Amazing Future, which is basically introduce-a-girl-to-
engineering day, which that's the one that I almost like the 
most.
    Mr. Hultgren. Yes.
    Dr. Peters. A bunch of eighth-grade girls come in and we--
they interact with our scientists. So we're doing a lot.
    In the State of Idaho, I would also put in a plug for the 
State of Idaho. The State of Idaho is doing a lot of investment 
in education, and we're a partner with them on that.
    Mr. Hultgren. Good. Let me keep going down the line. 
Thanks, Dr. Peters.
    Dr. Seestrom. Sandia has a modest number of outreach 
activities. One I'll mention is at our Advanced Materials 
Laboratory, which is joint with the University of New Mexico 
where we bring in a set of elementary school students to see 
the cool things you can do with materials. Mostly, we're 
funding that out of indirect and volunteer labor.
    We're keen on internship. You know, as I travel around 
Sandia and see the young engineers and scientists, many of them 
came to Sandia because they were interns. And we are not so 
well known as Fermilab and Argonne, and so getting these young 
people in the door is critical. The last thing is we recently 
established as a new management team the Jill Hruby Scholarship 
to honor our previous Laboratory Director Jill Hruby as the 
first woman Director of a national security lab, and we're 
about to announce our first two winners of that prize to bring 
two outstanding young women scientists into the lab.
    Mr. Hultgren. Great idea. My time is expired. If I could--
if the Chairman would give me leeway just to quickly--the other 
three, if you could just mention a thing or two. Thank you.
    Dr. Maxon. Yes, thank you. The Joint BioEnergy Institute, 
which you visited last fall----
    Mr. Hultgren. Yes, it was great. It was awesome.
    Dr. Maxon. --has a program focused on undergraduate--oh, 
sorry, high school students that are underrepresented 
minorities, who then go through a summer internship and 
research opportunity that has, over the last ten years, 
generated over a 95 percent college acceptance rate on those 
students.
    Mr. Hultgren. Fantastic. Dr. Kao?
    Dr. Kao. So for SLAC, we try to leverage the funding from 
the Department. Recently, we, actually working with Moore 
Foundation, to encourage girls in middle and high school to 
come to the laboratory because I think we need to do more to 
build the pipeline for a more diversified workforce for us.
    Mr. Hultgren. I agree. Thanks. Dr. Kearns?
    Dr. Kearns. Yes, Argonne has a very active education 
program, great outreach program. One thing that's coming up 
that I'll mention is activities supported by the Department of 
Energy Office of Electricity called the Cyber Defense 
Competition----
    Mr. Hultgren. Great.
    Dr. Kearns. --where we actually bring students into the 
laboratory. We set up a green team, red team, and a yellow team 
basically, including representatives from industry and of 
course it's a bit of a hackathon if you will----
    Mr. Hultgren. Yes.
    Dr. Kearns. --and students compete against each other at 
various schools. We've got 210 students participating this 
year. Pacific Northwest National Laboratory and Oak Ridge 
National Laboratory have also joined the activity, and so we're 
pretty excited about that. It happens here April 2 at Argonne 
so if you're in the neighborhood, please.
    Mr. Hultgren. I'll do my best. That sounds great. Thanks, 
Chairman. Thank you all so much and yield back.
    Mr. Weber. The gentleman yields back.
    We will yield to Mr. Foster of Illinois if he brought a pie 
for Pi Day.
    Mr. Foster. Yes, well, it's in the back room there, but if 
the staff will bring out the remaining crumbs if they haven't 
already pounced on it.
    Mr. Weber. The gentleman is recognized.
    Mr. Foster. Well, I wanted to wish everyone a happy Pi Day. 
It's a day where we celebrate the rational arts of logic, 
science, mathematics with an irrational number, a number whose 
digits continue as long and as randomly as, I don't know, 
politicians' tweets perhaps. But I want to thank you all for 
coming here----
    Mr. Weber. The gentleman's time is expired.
    Mr. Foster. I sometimes introduce myself as representing 
100 percent of the strategic reserve of physicists in the U.S. 
Congress. I also represent the 11th District of Illinois, which 
includes Argonne National Lab, and before coming to Congress, I 
worked at Fermilab for 23 years. And so I have a special 
interest among the just incredible scientific facilities that 
you operate in Argonne's facilities, including the Advanced 
Photon Source.
    On a recent tour of the national labs with Secretary Perry, 
we visited both Fermilab and Argonne, and I spent the day with 
him. I was really impressed by his enthusiasm for the crucial 
science and the research conducted at the labs.
    You know, you live in a situation where you have political 
oversight at the very top levels. In previous Administrations 
we saw a very strong scientific component at the top levels of 
the Administration that doesn't seem to be as present in the 
current Administration. And when we've had, you know, the 
political level of appointees and below, you know, before this 
Committee, they have acknowledged that and said how much they 
depend on the scientific expertise at the labs.
    And so your role there is more crucial than ever, and I 
want to thank you for toughing it out. And we're doing our best 
to protect you from the proposed budget cuts that would make 
your life miserable if they came through. Among other things, 
they would halt the--Argonne's Advanced Photon Source upgrade, 
which would allow Argonne to rejoin Dr. Kao's lab at the very 
forefront of leading light sources in the world and the 
incredible things that you can do with them.
    I have actually one specific question on energy storage 
where I'm working now on a bipartisan bill with Representative 
Knight talking about trying to set up demonstration programs 
for grid-scale energy storage. And when you set up a program 
with specific goals, it's important you set the goals right. I 
think it's one of the most destructive things we can do is to 
ask a group of talented technical people to do something that 
they know is impossible. An example of that would, say, be 
going to Mars on a flat budget, which is something we routinely 
ask NASA to do.
    And so there are three specific goals that we're thinking 
of right now: first, to have an installed energy capital cost 
of $100 per watt and a minimum of one charge and discharge 
cycle every day. That's a grid scale thing. And a lifetime of 
5,000 cycles of discharge and charge at full output. And, you 
know, you can respond either now or for the record whether 
those are sufficiently challenging to get the next generation 
of people interested in it and sufficiently achievable that 
you're not just asking people to go to Mars on a flat budget.
    And so I'd be interested if you have any immediate 
reactions to those, if they're in the ballpark, because there 
is a bipartisan interest in--including by our Committee Chair 
in making the transition to an energy economy that doesn't dump 
large amounts of carbon dioxide into the atmosphere, and energy 
storage is crucial there. Yes, Dr. Kearns.
    Dr. Kearns. Let me respond by--initially and then also 
some--promise some follow-up in terms of a more formal 
submission, but those look like they're in the ballpark to me. 
They look like they're aggressive enough and yet realistic 
enough in terms of where we're at today and where we'd like to 
drive.
    I guess the one question I might have in terms of follow-up 
is the time frame as to when you'd like to achieve these goals, 
any established----
    Mr. Foster. Yes, these would be actually starting--choosing 
and starting the projects 3 to five years from now.
    Dr. Kearns. Three to five years, okay. So let me get back 
to the lab and ask a few folks that have a greater knowledge 
than I do on this subject to make sure that we're responding 
appropriately, but I'd say they're in the ballpark.
    Mr. Foster. Yes, thank you. Any other reactions to that?
    Dr. Seestrom. We'll take it offline and bring you back an 
answer.
    Dr. Peters. Yes, but I concur. They sound properly 
aggressive, but I think we need to take it for the record so--
--
    Mr. Foster. Yes, it's tough. You can't--you know, President 
Kennedy said we're going to the moon within a decade----
    Dr. Peters. Right.
    Mr. Foster. --because there were detailed parameters for a 
mission to the moon that could be achieved with known 
technology at the time.
    Dr. Peters. Right.
    Mr. Foster. And so that is--it's a very different thing. It 
doesn't mean it's easy, it doesn't mean it's certain, but it's 
important that we set those right.
    And, you know, I really want to take advantage of that 
bipartisan enthusiasm for--now for transitioning to a low-
carbon economy. And I am now zero on my clock, so thank you and 
yield back.
    Mr. Weber. Okay. The gentleman yields back. Thank you.
    Dr. Babin, you're recognized.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman. I want to 
thank all of you witnesses for being here today, very 
interesting, very valuable information.
    Dr. Kearns, I have a couple of questions for you if you 
don't mind. At Argonne, a team of researchers discovered a way 
to attach oil-attracting molecules to polyurethane foam that--
the same foam commonly used in furniture and insulation by 
priming it with the metal oxide glue.
    The new and reusable material called the Oleo Sponge can 
absorb oil from an entire water column, not just up at the 
surface. The sponges will be used it to clean up oil spills, as 
well as diesel and oil buildup in ports and harbors. And what 
collaborative efforts led to this technological breakthrough, 
and what about the research environment at Argonne that 
developed this technology? And what steps will be taken by 
Argonne to transfer this technology to the fossil fuel 
industry?
    And I'll repeat that if you answer the first one and then 
don't remember what the second one was.
    Dr. Kearns. Thank you. Thank you.
    Mr. Babin. Okay.
    Dr. Kearns. Yes, the Oleo Sponge is a very exciting 
development. It's really--the genesis if you will was really 
funded through the laboratory's directed--Laboratory Director's 
Research and Development program, the LDRD program mentioned 
earlier by Dr. Seestrom as really essential if you will to 
really allow the laboratories to really develop new thoughts 
and pursue new ideas, and so it's initial funding was provided 
through the vehicle.
    It also built upon some capabilities that the Office of 
Science Basic Energy Sciences program funded through the Center 
for Nanoscale Materials really. It's a cross-collaboration 
between two different divisions at the laboratory, one very 
basic in terms of its approach at the Center for Nanoscale 
Materials but one more applied in terms of the Energy Systems 
Division at the Argonne, so great story in terms of where it 
began, really building off that initial investment by the 
Office of Science and further developed with LDRD funding and 
then really a cross-laboratory collaboration.
    In terms of what's occurring as we work to commercialize 
that technology, an opportunity announcement was made I'd say 
eight, ten months ago. The response has been tremendous. We 
have over 140 companies that have reached out and expressed an 
interest in the technology, and we've been in serious 
conversation with several since that time. We're down to a 
handful of folks that we're talking to currently that might 
take an interest if you will in terms of application of this 
particular technology and develop it for commercial products.
    Mr. Babin. Great. That's excellent.
    And, Dr. Seestrom, did you have anything you wanted to add 
to that since you we're involved in it? Okay. All right. Thank 
you.
    And also, Dr. Kearns, the Technology Commercialization Fund 
allocates .9 percent of the funding from the Applied Energy 
Offices to invest in commercialization of energy technology.
    When I look at this program and the decision under the 
Obama Administration to establish the Office of Technology 
Transitions, I'm concerned that we're consolidating funding 
decisions in Washington instead of giving more flexibility to 
our national labs, which tend to have direct relationships with 
industry and better understand the technology needs. How can 
Congress work with you to ensure that we don't centralize our 
technology transfer programs in Washington, which we're trying 
to not do?
    Dr. Kearns. Good question. I think there are number of 
things that could be done. One is the labs do, as you suggest, 
work directly with industry. A good example of an outreach 
activity at the Argonne National Laboratory is really we held 
an industry day focused on energy storage, and we had over 100 
companies come to the lab really to learn about our 
capabilities and express interest if you will in terms of their 
needs, their desires for further development of their ideas. 
And, as a result of that, a handful of opportunities that 
develop into CRADAs, the Cooperative Research and Development 
Agreements, and other examples of the laboratory working side-
by-side with industry in that way.
    So that's one great example I think of how to work with 
industry. What you might do is really encourage--as was 
discussed earlier, encourage more vehicles like the Cooperative 
Research and Development Agreement and the Strategic 
Partnership Project efforts the Department of Energy has 
underway.
    I'd also say the Technology Commercialization Fund you 
mentioned has been very active. We've been--Argonne has been 
very active and it's been a very attractive program for our 
industrial programs in that way as well, so a good history, 
good record there in terms of accomplishments.
    Mr. Babin. Okay. That's great.
    Well, Mr. Chairman, I'll yield back eight seconds. Thank 
you.
    Mr. Weber. The gentleman yields back, thank you.
    And, Mr. Dunn, you're recognized for five minutes and eight 
seconds.
    Mr. Dunn. Thank you very much, Mr. Chairman. I thank the 
panelists for coming here today to inform us about your labs. I 
look forward to coming to visit you at the labs and probably a 
lot more informative visits when you can actually teach me in 
the place.
    I'm a physician. I tend to focus on the healthcare in my 
questions, and if I could start with Dr. Kearns. Millions of 
people around the world have been helped with medical isotopes 
in these diagnosis treatment imaging and other diseases, cancer 
and whatnot. We're--we lack the capacity in the United States 
to produce all the needed isotopes, and some of our isotopes 
are in fact produced in highly enriched uranium reactors, which 
carries proliferation risks.
    Your lab is helping two companies develop new methods to 
make these isotopes in accelerators rather than reactors. I'd 
ask you to explain why it's important to the medical community 
to have these isotopes and to the patients to have these 
isotopes but also why avoid the highly enriched uranium 
reactors.
    Dr. Kearns. Yes, the last question first, fairly simple to 
understand. With the use of highly enriched uranium, the 
concern is one of proliferation and really safeguarding if you 
will the materials in a way that doesn't allow them to end up 
in the hands of those who might wish ill on individuals or 
nations, and so that's really the key component there.
    Certainly, you know, one of the primary examples--and the 
other laboratories involved should--I think in the isotope 
program should also comment, but the one program that's been 
active at the Department--at Argonne has been the Moly-99 
program, which is funded by the NNSA, working with a couple of 
industrial companies if you will to commercialize that 
technology. It's a great example really again of industry-
laboratory partnerships and really driving towards a well-
defined outcome if you will.
    I think the--why do that--Moly-99 is pretty essential 
really in terms of, you know, how we conduct medicine today. 
It's critical for the United States because we don't have any 
domestic production of Moly-99 currently. We're really 
dependent upon foreign sources, and of course the reliability 
of the sources is from time to time of concern. And so--
    Mr. Dunn. It's actually interrupted my practice on 
occasion.
    Dr. Kearns. Oh, has it?
    Mr. Dunn. And I'm sure I'm not the only one.
    Dr. Kearns. Yes.
    Mr. Dunn. So it's important for us to be able to get to 
those.
    Now, some of the isotopes simply cannot be produced in an 
accelerator, they need a reactor, and I know in recent years 
we've pushed to move from HEUs to low-enriched uranium 
reactors, and I understand that, I'm on board, but the low-
enriched uranium reactors generate roughly ten times the 
radioactive waste as the HEU reactors. And the United States 
has zero capacity to reprocess radioactive waste at this time. 
I believe I'm right on that. There's no MOX plants in the 
United States? Dr. Peters?
    Dr. Peters. There's not the capability to reprocess 
currently, yes.
    Mr. Dunn. Okay. And the MOX plant that's been under 
construction in South Carolina is slow or off-track?
    Dr. Peters. It's behind schedule, overbudget, and it's 
dedicated to reprocessing of the 34 metric tons of surplus 
plutonium--
    Mr. Dunn. Okay. So that----
    Dr. Peters. --so, no, it's not going to reprocess HEU.
    Mr. Dunn. Okay. Well, that's worth knowing. Thank you. And 
so I invite all the panelists to bend your considerable talents 
and resources to solving the problem of reprocessing our 
domestic radioactive waste, which should not be treated as 
waste in the first place but as a valuable precursor commodity. 
And I think we all know that the second generation radioactive 
waste that comes out of these reprocessed and reused--that 
you've changed the half-life of those--that radioactive waste 
in the far end of the cycle to something that's a lot 
rhythmically less, right? I mean, we move from hundreds of 
thousands of years, millions of years half-life to hundreds of 
years half-life, so I would encourage everybody to solve those 
problems. I know you can do it. I have faith in you.
    I'm going to sneak in another question if I can on the 
ultrafast--this is to Dr. Kao--the ultrafast frame rate x-rays 
you use to capture molecular movies, fascinating stuff. I've 
seen some of the work that's available. Can you explain how we 
use that information on a molecular level and how it might 
pertain to health care?
    Dr. Kao. Okay. So what the ultrafast x-ray does is you can 
take snapshot of a protein that typically these are targets for 
drug development, and in particular those on the surface of a 
membrane, membrane protein, they are very difficult to 
crystallize into crystals, so they tend to be very small. And 
so with this ultrafast x-ray, you can take a snapshot of these 
and you drop them down into the x-ray beam, you hit it, it 
disappears, but you capture the image. You do a million shots 
of these. You then reconstruct the three-dimensional atomic 
structure of that, and then you can use that to guide you to 
develop drugs.
    Mr. Dunn. Thank you very much. Mr. Chairman, I yield back.
    Mr. Weber. The gentleman yields back.
    The gentleman from Louisiana is recognized for five 
minutes.
    Mr. Higgins. Thank you, Mr. Chairman, and I thank this 
brilliant assemblage of scientists before us. Your testimony 
has been personally inspiring to me.
    Historically, DOE's research programs have had the greatest 
impact on resources that are focused on completion of certain 
goals or missions. Our national debt certainly leads us to 
righteous funding restrictions at the federal level, and that 
should lead us to a focus on result- and mission-oriented 
research. In my opinion, this is particularly true for advanced 
nuclear power.
    New modular technologies hold great promise and should be a 
priority for the Department. I believe we should establish a 
clear set of goals for completing a program leading to the 
demonstration of new nuclear technologies, real technologies, 
achievable technologies, technologies that can be deployed.
    Earlier this week, I introduced legislation H.R. 5260, the 
Advanced Nuclear Energy Technologies Act, which would set a 
goal of demonstrating four commercially competitive advanced 
reactor designs over the next decade. Setting mission-driven 
goals at DOE will help the United States regain its global 
leadership in nuclear energy security, open new markets for 
domestic power generation, retake a key strategic advantage 
from China and Russia, and put thousands of American engineers, 
manufacturers, and tradesmen to work. Further, a robust 
American nuclear energy sector is essential to President 
Trump's vision of American energy dominance.
    Dr. Peters, how can we better utilize DOE's nuclear 
programs to expedite the demonstration and ultimate 
commercialization of small modular reactors?
    Dr. Peters. Thank you, Congressman. First and foremost, let 
me say that I support what you're trying to do with your 
legislation. As you know, there's similar legislation coming 
out of the Senate to look at four demos roughly ten years from 
now.
    Because--but I'm a big supporter of trying to start to 
drive the R&D program to cost targets to try to drive down the 
economics and nuclear systems. I think that's important. So the 
R&D needs to be done now to help us get us to that aggressive 
demonstration goal that you articulated.
    I would also want to say that, in addition to the versatile 
fast neutron source, which this Committee is already fully 
supportive of, being able to go actually build these prototype 
demonstration units would be really, really important for 
putting us back in leadership position because other countries 
are doing this. China is building these--prototyping all of 
these advanced concepts, so it's very important.
    The other part of this is where would you put the demos? A 
place like INL would be a place you could build these 
demonstrations. I'd be happy to do that.
    Mr. Higgins. Thank you for your answer. Do you concur that 
a demonstration of a working prototype is certainly the link to 
a public-private partnership?
    Dr. Peters. It is. It is because I mentioned earlier about 
the private sector needing capital, but it's going to have to 
be a partnership with the government. But I do believe if we 
get those out to first-of-a-kind demonstration for some of 
these advanced concepts, that will then enable them to get into 
the market and move very quickly and penetrate the market.
    Mr. Higgins. Thank you, Doctor.
    Dr. Kearns, do you have anything to add?
    Dr. Kearns. No, I think I fully support what Mark has 
responded with. I think we're good.
    Mr. Higgins. Well, I have an additional question a bit that 
has been really touched on here today. Please respond as you 
see fit. What steps do your labs take to protect the classified 
intellectual and proprietary information and property from 
access, copying, and theft by foreign nationals? Any member?
    Dr. Seestrom. Of course at Sandia, as a national security 
lab, we place the highest priority on protecting our classified 
information,. We have very few foreign nationals mainly 
accessing only external areas of the lab.
    Mr. Higgins. You feel comfortable that your lab is 
sufficiently protected?
    Dr. Seestrom. I do. I would say I am as worried about 
insider threat as I am about foreign nationals.
    Mr. Higgins. As we should be. Does anyone else have 
something to add there? We're very concerned about intellectual 
property theft.
    Dr. Peters. Yes, maybe a little bit on the industry 
engagement perhaps. I mean all of us--I'm sure we have 
extensive controls in place, nondisclosure agreements and 
whatnot, so when we engage industry, we protect that 
information. And as you heard here, all of us are looking into 
increase our industry engagement, so that's very, very 
important.
    But we all have the ability to control the culture of the 
labs because we're dealing with classified material throughout 
our history. I think the industry engagement really is treated 
in a very similar way. We have to protect this information 
very, very carefully.
    Mr. Higgins. I thank you all for your answers. My time has 
expired, Mr. Chairman.
    Mr. Weber. I thank the gentleman.
    Mr. Biggs, you are up next.
    Mr. Biggs. Thanks, Mr. Chairman. And I'd like to thank 
Chairman Smith for inviting you. And this is an august panel, 
and it's been very informative and very interesting and I've 
learned a lot. And I just am very impressed at what we've 
talked about today, and thank you for being here.
    Dr. Seestrom, after a tsunami damaged the Fukushima-Daiichi 
nuclear power plant in 2011, massive amounts of seawater cooled 
the reactor. During cleanup activities, a molecular sieve 
created by Sandia National Lab scientists was used to extract 
radioactive cesium from tens of millions of gallons of seawater 
on the reactor side. It's my understanding that this technology 
was developed using Laboratory-Directed Research and 
Development, LDRD, funding at Sandia. Can you tell us a little 
more about how the technology was developed and how it made its 
way to Japan to play such an important role in the cleanup?
    Dr. Seestrom. So thank you very much for that question, 
Congressman. This is actually quite an informative story. So as 
you probably know, molecular sieves are crystalline substances, 
and the size of the pores limit the size of molecules that can 
go through. So the particular technology that was developed at 
Sandia in one of our earliest CRADA work with industry, 
crystalline silico-titanate had specific strength for removing 
cesium. We had a partnership with a company called UOP actually 
based I think in Des Plaines, Illinois. We licensed it to them. 
This was back in the '90s, we won an R&D 100 award based on 
that.
    When Fukushima came along, one of our eminent senior 
scientists, the chemist Tina Nenoff, who had worked on disposal 
of waste and cleaning of products at Hanford for a long time, 
was able to quickly test the CST for its applicability to 
putting the seawater through it, found that it would work just 
fine, and UOP managed to work with TEPCO in Japan to put that 
on the ground there.
    Mr. Biggs. It's fascinating. That's a great story. So 
you've talked about LDRD funding being a key part of how the 
labs pursue new research opportunities. What steps can Congress 
take to facilitate more of this flexible but mission-focused 
research?
    Dr. Seestrom. Well, continue the good work that Congress 
has done in setting both an upper threshold and a lower 
threshold for LDRD. We value every penny of that research. I 
could, if we had time, give you a list of five different 
inventions that came out of our LDRD program that transformed 
our missions, including our work in rad hard micro 
semiconductors, so just keep the limits there for us.
    Mr. Biggs. And so I want to talk about the budgeting 
because people talked about the CRs and its detrimental impact 
on all of you, but I'm new to Congress and we're going to vote 
on our seventh CR in six months, and I'm kind of embarrassed by 
that. I hope--there's not enough people in here to join me in 
my embarrassment. But over the last 20 years we've done more 
than 100 CRs, an average of five--in excess of five, almost six 
CRs per year, and I'm--you know, I realize that it's 
detrimental, but is it baked in at all in your budgeting as 
you--you know, the fact that--it looks to me like budgeting in 
some ways is actually a reasonably stable but with this kind of 
crazy blip every two or three months where we say, well, we're 
going to shut down government for a weekend or whatever it may 
be. Is it baked in at all or can you elaborate on that I guess 
is what I'm trying to say?
    Dr. Peters. Well, given that it's, as you note, an annual 
occurrence, we understand how to manage through it, but I would 
never say that it's a good thing because it's the constant 
challenge to keep the staff excited and motivated when you're 
going through this, particularly--I'll also particularly note 
the early career staff who--some of us--we've been through this 
for a long time, but the early career staff watch this and they 
say why am I at a lab? Why don't I go work somewhere else? So 
it's a challenge. So the more we get the regular order and 
stable research funding, the better we can innovate.
    Mr. Biggs. Well, don't get me wrong; I'm not saying that 
that's the way to do it.
    Dr. Peters. Yes--
    Mr. Biggs. I'm all with you on a----
    Dr. Peters. Yes, I understand. But it does--but I'm just 
reacting to--
    Mr. Biggs. Yes.
    Dr. Peters. It's baked in in the sense that from the 
management perspective we know how to manage it, but that 
doesn't mean that the staff--
    Mr. Biggs. Fair enough.
    Dr. Peters. --don't get put through a lot of churn.
    Mr. Biggs. Yes.
    Dr. Seestrom. But I would say we're all used to, after 30 
years, seeing continuing resolutions for a month or two, but 
the length that we're going now is really hard to deal with. 
Programs begin to lose funding and it's particularly hard on 
new starting projects--
    Mr. Biggs. Sure.
    Dr. Seestrom. --which can't get going in a CR.
    Mr. Biggs. We did one from December 8 to December 22 this 
year. How idiotic--I mean last year. Anyway, sorry. Dr. Kearns?
    Dr. Kearns. Yes, I was going to comment as well. I think a 
couple of things--and one is it is particularly difficult for 
early career scientists because it creates uncertainty, and of 
course they have lots of opportunities to go other places, as 
has already been mentioned by the panel. I think it's critical 
that during this time of uncertainty that the Laboratory 
Directors need to show some leadership and really step out 
front and talk about it being a process and also share our 
experience in terms of positive outcomes.
    I would also say, though, it really is, as has just been 
commented by Susan in terms of impact on new starts or 
construction activities--or perhaps not a new start but where a 
ramp-up in funding is really planned for an ongoing project is 
particularly critical. You know, certainly, the Advanced Photon 
Source at Argonne has suffered this time and time again, and so 
we're really, you know, pleased with the indications of the 
fiscal year 2018 budget and hopefully the fiscal year 2019 
budget will show a different story.
    But really, it creates a lag. It takes away sense of 
urgency. It really kind of--really challenges us to really stay 
at the edge in terms of our thinking, so it's important that 
we're able to move forward.
    Mr. Biggs. Yes, and I will just tell you I'll keep pushing 
for us to do an annual budget so everybody can be more stable 
and more predictable. So, again, thank you for being here. 
Thank you, Mr. Chairman.
    Mr. Weber. Mr. Norman, you are up.
    Mr. Norman. I just echo what Congressman Biggs says about 
the CRs where you can't run your business on a month-to-month 
basis, nor should we expect you. Thank each of you for your 
testimony.
    Dr. Peters, in your prepared testimony, you talk about the 
work that the Idaho National Lab is doing to support the 
existing light-water reactor fleet like developing the new 
accident-resistant fuels are working with utilities to 
modernize nuclear power plant control rooms. What other 
research is the lab undertaking to help nuclear energy 
technology remain competitive?
    Dr. Peters. In the light-water reactor area, we're also 
working on materials so--because when the--when a utility want 
to take a reactor from 20 to 40 to 60 or even 80 years of 
operation, we need to ensure that the materials will survive 
that long. We see no showstoppers there, so every--all 
indications are that they'll be fine.
    In the advanced reactor area where we're working with a lot 
of companies in partnership to help them mature their designs, 
make them more cost-competitive, everything from the reactor 
core itself to the fuel. We do extensive work on fuel 
development. So you mentioned accident-tolerant fuels that 
would go into light-water reactors but also developing advanced 
fuels for advanced reactors.
    We're working a lot--we haven't talked a lot about it 
today, a lot on the nuclear fuel cycle, so we're--as you know, 
we're pursuing going to a repository now, but could there be 
options for reprocessing in the future? We're doing a lot of 
research in that area as well.
    But I want to stress, you know, we're an applied 
laboratory, so we work very closely with industry across the 
whole gambit, and that's an important part of our focus.
    Mr. Norman. Related to that, Dr. Peters, is there a direct 
benefit to the Department--to DOE, Department of Energy, to 
have the labs perform multidisciplinary science research for 
different programs across the Department? As an example, how 
does it benefit the Office of Science or NNSA to have the 
respective labs engage in diverse research for other DOE 
programs or federal agencies?
    Dr. Peters. We all have very--we all have unique 
capabilities, so I very much think that, for example, Sandia or 
Argonne is two good examples have capabilities that they've 
built in either the security or the basic science area that are 
very applicable to the applied programs. We partner very, very 
effectively. If you look at the capabilities at the 17 labs, 
some would argue you see duplication. I actually see a lot of 
complementarity, so there's tremendous opportunity.
    And we're an applied nuclear lab, and we do a lot of work 
in the national security space and cybersecurity and whatnot 
because we have capability that can solve national problems. So 
collaboration is really important across the system, and I 
think it's quite effective actually.
    Mr. Norman. It makes sense. Dr. Seestrom, as a nuclear 
weapons lab, Sandia has a specific mission to accomplish for 
DOE, but from your testimony, it sounds like the impact of 
Sandia's research has been much more broad. Can you provide 
some examples of areas of research that Sandia conducts for its 
nuclear weapons mission but that has also led to benefits in 
the civilian economy?
    Dr. Seestrom. So, you know, Sandia has expertise in 
hydrogen materials coming from our mission in NNSA for gas 
bottles. That leads us to certain expertise in chemical 
processes. In our Combustion Research Facility, we do research 
with each of the major U.S. car companies looking at improving 
fuel efficiency for light-duty and heavy-duty trucks as an 
example. You know, we have thousands of CRADAs there.
    Our work for NNSA where we are responsible for radars have 
led to other national security work where, for the DOD, we've 
developed a next generation of synthetic-aperture radar, which 
lets us save our troops on the battleground with much better 
visibility through clouds that comes back to impact our core 
national security mission.
    Mr. Norman. What about manufacturing?
    Dr. Seestrom. I don't think I can answer on manufacturing, 
but I'll take that for the record.
    Mr. Norman. Okay. Thank you. I yield back.
    Mr. Weber. I thank the witnesses for their testimony and 
the Members for their questions. The record will remain open 
for two weeks for additional written comments and written 
questions from Members. This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
                   
Responses by Dr. Mark Peters

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Susan Seestrom

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Mary E. Maxon

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Chi-Chang Kao

[[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Paul Kearns

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
